<html>
<title> - UNDERMINING DEMOCRATIC INSTITUTIONS AND SPLINTERING NATO: RUSSIAN DISINFORMATION AIMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                UNDERMINING DEMOCRATIC INSTITUTIONS AND
                           SPLINTERING NATO:
                      RUSSIAN DISINFORMATION AIMS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2017

                               __________

                            Serial No. 115-7

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-584 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                   
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

His Excellency Toomas Hendrik Ilves (former President of the 
  Republic of Estonia)...........................................     5
The Honorable Lincoln P. Bloomfield, Jr., chairman emeritus and 
  distinguished fellow, The Stimson Center (former Assistant 
  Secretary for Political Military Affairs, U.S. Department of 
  State).........................................................    16
Mr. Peter B. Doran, executive vice president, Center for European 
  Policy Analysis................................................    25
The Honorable Daniel Baer (former U.S. Representative to the 
  Organization for Security and Cooperation in Europe)...........    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

His Excellency Toomas Hendrik Ilves: Prepared statement..........     7
The Honorable Lincoln P. Bloomfield, Jr.: Prepared statement.....    18
Mr. Peter B. Doran: Prepared statement...........................    27
The Honorable Daniel Baer: Prepared statement....................    32

                                APPENDIX

Hearing notice...................................................    92
Hearing minutes..................................................    93
Mr. Peter B. Doran: Material submitted for the record............    95
The Honorable Scott Perry, a Representative in Congress from the 
  Commonwealth of Pennsylvania: Material submitted for the record   101
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Material submitted for the record.........   104
The Honorable Thomas A. Garrett, Jr., a Representative in 
  Congress from the Commonwealth of Virginia: Material submitted 
  for the record.................................................   108
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island:
  Report entitled ``Background to `Assessing Russian Activities 
    and Intentions in Recent US Elections': The Analytic Process 
    and Cyber Incident Attribution''.............................   111
  Washington Post articles.......................................   114
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   117
Written responses from the witnesses to questions submitted for 
  the record by the Honorable Ann Wagner, a Representative in 
  Congress from the State of Missouri............................   119


                  UNDERMINING DEMOCRATIC INSTITUTIONS



                         AND SPLINTERING NATO:



                      RUSSIAN DISINFORMATION AIMS

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    This morning we examine Russia's systematic attempts to 
undermine and discredit Western democratic institutions, with 
one goal being to splinter the North Atlantic Treaty 
Organization.
    In January, the U.S. intelligence community produced a 
report which found that ``Russian President Vladimir Putin 
ordered an influence campaign in 2016 aimed at the U.S. 
Presidential election.'' Thankfully, there is no evidence to 
suggest Russia interfered in our voting and tallying process. 
But Members of Congress rightfully have many more questions 
surrounding Russian meddling. So it is appropriate that the 
intelligence committees, on a bipartisan basis, are working to 
get to the bottom of this. We need answers. And we need to make 
sure it doesn't happen again.
    Indeed, the intelligence community reports warn that 
``Moscow will apply lessons learned to future influence efforts 
worldwide, including against U.S. allies and their election 
processes.'' Here in the U.S., our midterm elections will be 
here before we know it. And with elections on the horizon in 
France, Germany, the Netherlands, the Czech Republic, and 
Italy, European intelligence services are sounding the alarm 
about Russian attempts to skew the outcome with targeted 
disinformation and propaganda. In France, for example, one pro-
European candidate has reportedly been the subject of 
``hundreds and even thousands'' of hacking attempts against his 
party, and outlets such as RT and Sputnik spread disinformation 
to undermine his candidacy.
    This isn't new. The committee is joined today by Toomas 
Ilves, a former Estonian President--welcome, Mr. President--who 
led his country as Russia inflamed ethnic passions and directed 
disinformation and cyberattacks against Estonia. Russia's media 
war against the Baltic states goes back over a decade.
    What is new is that Russian disinformation has been growing 
in sophistication, intensity, reach, and impact. According to 
the Center for European Policy Analysis--also represented here 
today--``Russia's information warfare does not crudely promote 
the Kremlin's agenda, instead it is calibrated to confuse, 
befuddle, and distract.'' They go on to note that ``Russia aims 
to erode public support for Euro-Atlantic values in order to 
increase its own relative power.'' Russia has deployed its 
arsenal of trolls, propaganda, and false information to a new 
level. These techniques have even become enshrined in official 
Kremlin doctrine.
    Moscow's strategic objective is to break apart the NATO 
alliance and, thus, to boost Russian geopolitical influence in 
Western Europe. The stakes are high: If Kremlin-backed 
politicians take power in France, it could potentially spell 
the end of the European Union. Even for those who might approve 
of that development, I think we can all agree the future of the 
EU should be left to the Europeans--not manipulators in Moscow.
    So how do we push back? Last Congress, when this committee 
held a hearing on Russia's ``weaponization of information,'' 
U.S. international broadcasters were on the air with a near 30-
minute television news program in the Russian language called 
Current Time. Now, 2 years later, this Russian language show is 
running 6 hours of live programming daily--but still cannot 
provide data on target audience and market penetration. In 
December, the President signed legislation authored by myself 
and Mr. Engel--and pushed by this committee--to empower a CEO 
to run all U.S. international broadcasting. The CEO should use 
its new authority to prioritize this threat, and the committee 
should look at other steps we can take to intensify U.S. 
international broadcasting.
    And more should be done to hold those hacking accountable. 
Why not go on the offense to release information exposing 
corruption at the Kremlin?
    I want to thank all of our distinguished witnesses for 
their participation in today's important discussion. I am 
afraid it is not exaggeration to say the long-term future of 
the European security order and America's role as an Atlantic 
power is at risk. Last month the Russian foreign minister 
called for, in his words, a ``post-West'' world order. Unless 
the United States stands solidly with its allies to better 
challenge this Russian disinformation assault, that disturbing 
call could come sooner than we would like.
    I now turn to the ranking member for his opening comments. 
Mr. Engel of New York.
    Mr. Engel. Thank you very much, Mr. Chairman. I want to 
thank our witnesses as well and welcome you all to the Foreign 
Affairs Committee.
    Ambassador Baer, I want to just tell you it is good to see 
you again. Your service at the State Department was exemplary, 
both in the Democracy, Labor and Human Rights Bureau and as our 
Ambassador to the OSCE. And I also want to commend your work in 
promoting diversity among our foreign affairs personnel, 
speaking out about the importance of getting more LGBT 
individuals into senior roles in the department.
    Mr. Chairman, I thank you. I am glad our focus today is on 
Russia. Disinformation is a problem, no doubt about it. But in 
my view, as I believe your view as well, a much bigger problem 
is that a hostile foreign government committed criminal acts in 
an effort to undermine American democracy. At Vladimir Putin's 
orders, Russia's agents tried to swing last year's election in 
favor of President Trump. Those actions were an attack on our 
country. And if we don't respond effectively, Putin will become 
an even bigger threat to the United States and our allies.
    It doesn't matter who they try to help or not help, the 
fact that they had the nerve to interfere in our elections 
should make all of us pause--give all of us pause for concern. 
So while I am glad we are having this hearing today, I hope it 
will only be the first in a series of hearings and other 
actions by this committee to address this problem.
    Before I continue, I want to say that when I first came to 
this committee in 1989, the chairman of the committee was Dante 
Fascell. I know Ms. Ros-Lehtinen knew him well. Well, today 
would have been Dante Fascell's 100th birthday. As chair of 
this committee he helped establish the Helsinki Commission and 
the National Endowment for Democracy. He was a true statesman 
and he personified what the chairman and I have done these past 
6 years for this committee, saying that politics stops at the 
water's edge. He really believed that as well. And his portrait 
is right over my left shoulder.
    This committee has an important role to play. And I am 
delighted that the chairman scheduled this hearing. With 
respect to our witnesses, we will also need to hear from senior 
administration officials once they are in place because this 
committee needs to exercise our oversight role and we need to 
legislate.
    For instance, this committee is the gateway to a full 
independent investigation. The bill to create that commission 
and to protect our democracy, as introduced by Mr. Swalwell and 
Mr. Cummings, is solely within our jurisdiction and waiting for 
this committee to mark it up. We can't wait any longer. Each 
week it seems we learn about another person in the Trump 
campaign who met with a Russian official. Already the 
President's national security advisor, General Flynn, has 
resigned because of these contacts.
    The Attorney General met with the Russian Ambassador as 
well. Look, we meet with Ambassadors all the time. They come 
into my office. But Mr. Sessions hid the truth about these 
meetings when he testified to the Senate Judiciary Committee. I 
find his explanation impossible to be taken seriously. But I 
want to know why these meetings were shrouded in secrecy.
    And now we learn that the President himself met with 
Russia's Ambassador. There are just too many unanswered 
questions. Shutting this behind the closed doors of the 
Intelligence Committee isn't the solution. A 9/11-style 
commission, along with a special prosecutor appointed by the 
Justice Department, is the only way to stop the drip, drip, 
drip of information. But an investigation isn't enough. We need 
to respond.
    Mr. Connolly and I have offered a bill, the SECURE Our 
Democracy Act, that would be a real punch in the nose to Putin 
and his thugs. This bill would sanction anyone who interferes 
in an American election from overseas. Those responsible for 
last year's crimes would be held accountable. And anyone 
thinking about meddling with our elections in the future would 
know there would be consequences. It is based on sanctions 
legislation that has worked well in the past, and it wouldn't 
cost the taxpayers a dime.
    This bill is common sense. You mess with the bull, you get 
the horns. Every Democrat on this committee, along with dozens 
of others, are cosponsoring this bill. I would hope that our 
Republican friends will eventually sign on or offer an 
alternative bill to impose similar consequences.
    It is very remarkable to me that rather than dealing with 
the very real, very immediate threat of Putin's aggression, the 
administration is instead taking aim at our intelligence and 
law enforcement agencies and shifted blame onto the last 
administration, spinning wild theories about wiretaps and other 
spy novel tactics. These allegations are not true. There is no 
evidence. This is an attempt to muddy the water, and it won't 
work.
    Have our politics really gotten to the point where they 
stop us from confronting an attack on our country? If so, shame 
on us. Russia attacked the United States. Putin meddled with 
American democracy. We need to know exactly what happened and 
determine the best way to respond. So I am glad our committee 
is taking the first step in dealing with that problem. I hope 
we stay focused on it. We are the first committee to do it. And 
this is within our jurisdiction and I am proud of, again, 
Chairman Royce and myself working together so we can be the 
first committee to do this. But we must continue; we cannot 
stop here.
    So I look forward to our witnesses' insights on how to 
confront this problem. I thank the chairman again, and I yield 
back.
    Chairman Royce. Thank you. Thank you, Mr. Engel.
    This morning we are pleased to be joined by a distinguished 
panel. His Excellency Toomas Ilves served as the President of 
Estonia from 2006 to 2016, during which time his country was 
directly impacted by Russian disinformation and cyberattacks. 
We are honored to have him with us here today.
    The Honorable Lincoln Bloomfield is the chairman emeritus 
and distinguished fellow at The Stimson Center. Previously, 
Ambassador Bloomfield held a series of positions in the 
Departments of State and Defense, including serving as the 
Assistant Secretary of State for Political and Military 
Affairs. We welcome him back.
    Mr. Peter Doran is executive vice president at the Center 
for European Policy Analysis where he oversees the Center's 
Information Warfare Initiative.
    The Honorable Daniel Baer is the former U.S. Representative 
to the Organization for Security and Cooperation in Europe. 
Welcome, Ambassador.
    Without objection, the witnesses' full prepared statements 
will be made part of the record and members will have 5 
calendar days to submit statements or questions or any 
extraneous material for the record.
    I also will remind my colleagues of Jefferson's Manual, 
which allows robust discussion but prohibits engaging in 
personalities.
    We will start, Mr. President, with your remarks. If you 
could please summarize your remarks for us now. And just hit 
the talk button. There you go. Thank you, Mr. President.

   STATEMENT OF HIS EXCELLENCY TOOMAS HENDRIK ILVES (FORMER 
             PRESIDENT OF THE REPUBLIC OF ESTONIA)

    President Ilves. Thank you very much. It is an honor to be 
here. To compress it all might be--I will try to do my best.
    Basically, I mean, we go back to General Clausewitz who 
said, ``War is the continuation of policy by other means.'' We 
are certainly seeing the continuation of policy by other means 
when it comes to disinformation and all of the other behaviors 
that we have seen. And I would suggest or recommend reading the 
Russian chief of the general staff Valery Gerasimov's article 
from 2013 in which he outlines basically all of the behaviors 
that we have seen here which have been given the name of 
``hybrid war.'' But, in fact, he does in that article outline 
all of the various policies that should be pursued by the 
Russian Federation in order to achieve its ends.
    We have seen these processes in action for--well, I would 
argue--we have seen since 1989, even before the establishment 
of our independence in Estonia, and also in Latvia and 
Lithuania, when already the Soviet Union embarked on a 
disinformation campaign directed toward us. And we have 
actually gone through it since then.
    The disinformation campaign really hit sort of a wider 
audience, I would argue, after the annexation of Crimea. When 
taking the lessons of a complete PR flop in the Georgian 
invasion where the Georgians managed to really outdo the 
Russians, and the Russians had not paid any attention to 
getting the message out, when it came to Crimea the Western 
media was flooded with stories about Ukrainian Nazis and all 
kinds of horrible tales that were untrue.
    And what we see now, and I would argue this will be the 
main battlefield for the next year, is in Europe where, as you 
rightly mentioned, there are a number of key elections coming 
up, not only key elections, but among major countries. They, I 
mean the large countries, first and foremost Germany and 
France, will have elections. There are strong odds there will 
be an Italian snap election. That is this year. That is three 
out of the four remaining big countries in Europe, now that the 
U.K. has left. So this is a big year.
    Then there are also the crucial elections in the 
Netherlands, which may not be one of the biggest countries but 
it is sort of considered one of the medium powers. And in all 
cases we have seen significant meddling.
    The Dutch are so afraid they have decided to go back to 
paper balloting because they are afraid of what might happen. 
And we have seen, I mean, any number of stories in the 
literature about how in the Netherlands there have been 
attempts to influence opinion, most recently on the referendum 
on whether or not to allow the association agreement with 
Ukraine, which is kind of a minor issue since an association 
agreement between the European Union and a country is kind of a 
free trade agreement with student teacher exchange, but that is 
it. Nonetheless, they held a referendum and defeated it, and 
which left Ukraine in the cold regarding the rest of the year.
    Policies in general seem to be directed at splitting up the 
EU and NATO. Certainly the candidates that are being supported 
are ones who are very anti-EU and anti-NATO. The most 
prominent, of course, in the key country of France, is Marine 
Le Pen who is anti-EU, anti-NATO, anti-U.S. She has received or 
her party has received $9 million from a Russian bank for 
support. With the rise of Emmanuel Macron as a leading centrist 
alternative to Marine Le Pen we see massive disinformation 
about him.
    With the little time remaining I will say, clearly Angela 
Merkel is a key target. Angela Merkel, the Chancellor of 
Germany, has been the figure holding the EU together on 
sanctions policy. And I guess in the question period I can 
answer more specific questions. But, basically, this year the 
goal seems to be to win elections in Europe so that anti-EU, 
anti-NATO forces get into power.
    Thank you.
    [The prepared statement of President Ilves follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
    
    
    
                              ----------                              

    Chairman Royce. Thank you, Mr. President.
    Ambassador Bloomfield.

STATEMENT OF THE HONORABLE LINCOLN P. BLOOMFIELD, JR., CHAIRMAN 
 EMERITUS AND DISTINGUISHED FELLOW, THE STIMSON CENTER (FORMER 
   ASSISTANT SECRETARY FOR POLITICAL MILITARY AFFAIRS, U.S. 
                      DEPARTMENT OF STATE)

    Ambassador Bloomfield. Thank you and good morning, Mr. 
Chairman, Ranking Member Engel, and members. It is an honor to 
be here this morning.
    My prepared testimony provides a strategic analysis of a 
longer-term view that looks into the future, that takes into 
consideration the past, and tries to put the current 
disturbance and the current events in a broader perspective. I 
associate myself with the opening remarks of both the chairman 
and the ranking member. And I hope the members will take what I 
have to say today as being entirely non-partisan and in favor 
of the home team, which is all of us.
    The fact that we have distinguished European visitors in 
the room today, both at the panel with President Ilves and the 
others behind me, Ambassadors, shows this is not just an 
American issue. This is a much bigger issue.
    I start by saying that there are some big changes going on 
in the world that have nothing to do with Russia. As you have 
seen, globalization, robotics, the massive increase in 
connectivity in the internet has had profound effects. And last 
year's election may well have been manipulated by Russia, but 
it was also caught up in some very big headwinds of global 
change, as you know. And this change is affecting Europe; it is 
affecting the whole world.
    We have to separate those two things and recognize that 
last year was a change election where a number of Americans 
were worried about whether the tools of foreign policy were 
strong enough, whether we could be effective in fighting 
extremism and finishing what we started in Iraq, Afghanistan, 
and elsewhere. There were a lot of things we were worried about 
including the loss of manufacturing jobs. Russia tried to 
exploit all of that. And we will find out when we investigate 
exactly how much they did and what the effect was.
    But it is very important to realize that our democracy is 
being tested. What I would say is look at Russia's recent 
history. For the last 20 or 30 years the trend has been toward 
open democratization around the world. We saw autocracies 
disappear in Latin America, Central and Eastern Europe, 
Southeast Asia, Central Asia, the colored revolutions, starting 
with the Czech Republic and what happened in Poland years ago, 
and the fall of the Soviet Union, but then more recently in 
Ukraine, Kyrgyzstan, and Georgia. This, of course, alarmed Mr. 
Putin and his secret service colleagues who thought that they 
would lose the whole thing.
    So what did they do? They tightened down and they moved in 
a different direction. And I want the members to think about 
how not only Russia but China, Iran, and Syria, and perhaps 
others, are regimes that are going to try to stick around 
forever. They are trying to stay in power as one-party states. 
How do they do this? They do it by repressing their dissidents, 
by parking money in foreign banks so that they have assets, by 
controlling all security services, all the guns, and by 
censoring the media--that is extremely important.
    So there is a contest that I think can play out over the 
next 20 or 30 years as to whether this model of a repressive 
autocracy in the modern age is going to surpass Western 
democracies. They are trying to undermine our confidence. They 
are trying to undermine our institutions. I think that is very 
dangerous.
    My testimony provides two sets of responses. One is, what 
should we do to protect ourselves?
    First is to investigate, as Ranking Member Engel said, and 
take appropriate actions. We need to know what happened. And we 
need to do it in concert with our NATO allies, with our 
European Union friends. We should do this as a joint project. 
We should share, compare notes, and we should talk about 
appropriate responses.
    We should probably take a much deeper look at what the 
cyber implications are of our deep dependence on internet-
connected information, and the fact that people can put out 
their own news, and their own broadcasts. We can't stop that 
but we need to think about it and be strategic and perhaps have 
a Western response to this threat.
    But the ultimate answer is to govern successfully. Nothing 
would work better for Russia strategically than to deepen the 
natural differences in a vibrant American democracy between 
Republicans, Democrats; left, right; blue, red, et cetera. That 
is fine. That is the glory of our democracy. But when it 
becomes so intractable that we cannot agree on national 
security, we cannot agree on the future solvency of the 
country, and we cannot agree on the reputation of the United 
States in the world, that is when Russia starts to win. We need 
to be conscious of this contest. And our victory will be to 
prove that democracy works.
    So, we will survive. My final point, and my testimony lays 
this out, is that we will survive this, this attempt to try to 
influence us. We had some very dangerous Russian provocations 
during the Cold War, which some of us lived through.
    Can Mr. Putin survive a taste of his own medicine? If you 
go to the end of my testimony I have put out the idea of 
issuing a number of reports that reveal his little secrets, as 
a Western response, and see how he likes it when everyone knows 
where he put his money, how many dissidents he has killed, how 
they shot down the Malaysian airliner, and several other 
issues.
    Thank you.
    [The prepared statement of Ambassador Bloomfield follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
    
    
                     ----------                              

    Chairman Royce. Mr. Doran.

  STATEMENT OF MR. PETER B. DORAN, EXECUTIVE VICE PRESIDENT, 
              CENTER FOR EUROPEAN POLICY ANALYSIS

    Mr. Doran. Thank you very much, Mr. Chairman, Ranking 
Member, and members of the committee.
    I am Peter B. Doran, the executive vice president of the 
Center for European Policy Analysis. It is an honor to be here 
to talk with you today. I have submitted my written testimony 
for the record. And what I would like to do is to provide a 
brief overview of Russia's global efforts to undermine 
democratic states.
    Now, Mr. Chairman, my organization is a U.S.-based, 
nonprofit policy institute dedicated to the study of Central 
Europe. Our main focus in the question of disinformation right 
now centers on American allies like Poland and the Baltic 
states. Based on our research and reporting at CEPA, my main 
message to the committee is this: The Russian Government is 
sharpening its use of state-sponsored propaganda against 
Western democracies. This puts democratic states and NATO at 
risk.
    This committee should have no doubt Russia is a rival to 
the United States. The strategic aims of the Russian Government 
are fundamentally incompatible with American interests in 
Europe. In its place, Russia wants to change this. Russia wants 
to establish a sphere of privileged influence in Europe. But to 
do so, they must weaken America's links to our allies, divide 
NATO and, if necessary, use force.
    Russia's problem is that against a united Atlantic 
alliance, Russia is relatively weak. Against individual states 
in Europe, Russia is comparatively strong. Russian leaders know 
this. It is why they must fracture allied security, stoke 
public distrust against democratic institutions, and discredit 
the alliance structures that defend Europe. If we are divided 
and distracted, Russia can challenge the U.S.-led security 
order. This is Russia's aim. Propaganda is a means.
    Unlike the Cold War, today's Russian propaganda does not 
crudely promote the Kremlin's foreign policy agenda. Instead, 
it is calibrated to confuse, distract, and dismay audiences. 
The intent here is to erode Euro-Atlantic values and degrade 
trust and public support for security organizations like NATO. 
So whether Russian propagandists are repackaging deceptive 
narratives to disguise their original source, a concept that we 
call narrative laundering, the methods are many. Trust is the 
intended casualty: Trust in America's promises, NATO's staying 
power, and democratic efficacy.
    All of this has immediate ramifications for upcoming 
elections, as members of this panel have already noted. Right 
now Russian propaganda outlets are actively trying to shape 
public perceptions ahead of both contests. The Russian 
Government has a stake in the outcome of these elections 
because if we are distracted, divided, and incapable of 
defending the existing security order in Europe, then Russia 
can achieve its foreign policy goals. If Russia succeeds, it 
will create great harm to U.S. interests.
    The question becomes for us then how do we protect 
ourselves? And what does victory on this new frontier of 
conflict actually look like?
    Well, for starters, I would recommend to the committee that 
we start to view Russian propaganda like a virus. To stop this 
virus we should treat it like one. This means detecting the 
virus, knowing what it is and how it works, debunking it, so 
curing those who may have been exposed, defending people by 
educating citizens to protect themselves and others, and 
disarming it or finding a vaccine.
    CEPA has developed a packager of ideas to address the 
different dimensions of disinformation. The full list is 
included in my written testimony for the record. But the bottom 
line is this: In the 21st Century media space the lie can be 
disproved but audiences have to care. To defeat Russian 
disinformation we are going to need more systemic analysis of 
its methods and impact, better counter-messaging from 
government and non-government sources, high impact media 
education for everyday audiences, and not just a whole of 
government approach at the policy level, but a whole of society 
approach to disarming propaganda.
    Well, this may seem like a sobering assessment for the 
committee. Members should be encouraged. Trust can be restored. 
The information space can be protected.
    I very much thank you for your time. And I do look forward 
to questions from the committee. Thank you.
    [The prepared statement of Mr. Doran follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
    
    
    
                              ----------                              

    Chairman Royce. Thank you.
    Ambassador Baer.

      STATEMENT OF THE HONORABLE DANIEL BAER (FORMER U.S. 
REPRESENTATIVE TO THE ORGANIZATION FOR SECURITY AND COOPERATION 
                           IN EUROPE)

    Ambassador Baer. Thank you, Mr. Chair, and thank you, Mr. 
Ranking Member, and thank you especially for your warm 
comments. And thank you to all the members for having us here 
today.
    Over the last few years I have developed a kind of 
Pavlovian response to this kind of microphone. And when I see 
one I prepare to defend the United States against the spurious 
claims of the Russian Ambassador. But I am glad to be here 
today with the home team.
    Vladimir Putin pursues with obsessive compulsion a range of 
efforts to dominate the post-Soviet space and to weaken Europe, 
the U.S., transatlantic relationships, and institutions that 
reinforce democratic values. We must understand why the Kremlin 
does this, how, why it matters to the U.S., and what we should 
do about it. A fuller treatment is in my written testimony.
    Russia's foreign policy is driven by Putin's domestic 
political aims, namely, the preservation of his personal 
position and the corrupt authoritarian system by which he and 
so many of his cronies have enriched themselves and maintained 
an iron grip on the state. Putin longs for a lost Soviet past, 
sure. But he also fears the present. He fears justice, 
accountability, the rule of law, all the things that the 
European Union, NATO, and the United States of America 
represent and reinforce.
    The rules-based order, which has been a chief 
accomplishment of U.S. foreign policy throughout Democratic and 
Republican administrations over the last seven decades, is 
anathema to the kleptocratic authoritarianism of Russia's KGB 
President.
    Let me turn to disinformation and hacking. It is possible 
to track Russian disinformation's past from GRU and FSB agents 
working with the Kremlin, through Russia's propaganda arms like 
Sputnik and RT, to a set of intermediaries disguised as 
independent sources. These actors often describe themselves in 
their profiles in ways intended to legitimize and make them 
attractive to target audiences. For example, those targeting 
Trump supporters may have ``Make America Great Again'' or 
``Christian Patriot USA'' in their profile. Never mind that 
they might in fact be sitting in a troll factory in St. 
Petersburg.
    They share the stories, which are then amplified through 
technical means, or bots, that send many thousands of tweets of 
the same false stories accompanied by hashtags. This burst of 
activity puts the hashtags on Twitter's trending list. And then 
the story is picked up by genuine supporters of a candidate or 
cause who share it on Twitter or Facebook. Little does the 
person in Hamilton, New Jersey, or Brea, California, know that 
what they just shared with their friends and family is junk 
that was written by a Russian agent.
    State-sponsored hacking is another part of this operation. 
WikiLeaks is the most well-known platform for Russian 
intelligence to distribute their stolen material. The 
coordination of the two tactics was exposed several times 
during the U.S. Presidential campaign when RT or Sputnik ran a 
story based on hacked material hours before the material was 
posted on WikiLeaks. Even Russian spies make mistakes.
    The same intermediaries and bots that were active during 
our election pivoted almost immediately to upcoming elections 
in Europe, as we have heard today. There, Russia seeks to 
bolster xenophobic and anti-EU candidates and to take down 
German Chancellor Merkel for similar reasons--to strike a blow 
to Europe.
    Attempts to undermine democracy and political stability in 
Europe are a threat to American security and prosperity. Our 
European allies remain our partners of first resort in taking 
on the challenges of the 21st Century. And when they are 
weakened, the United States is less able to accomplish our 
objectives. In response, we must pursue three general lines of 
effort at the same time: First, work with governments and civil 
society in Europe to help repulse Russian efforts.
    Second, sustain existing punitive measures aimed at 
delivering consequences to Russia for its intervention in our 
election, and be prepared to implement additional measures.
    Third, we need a comprehensive, independent review of 
Russian interference in our elections.
    Support for a full investigation has divided too often on 
party lines. This saddens me. This should not be a partisan 
issue. This is a national security issue that should concern 
any patriot. I understand that because Russian influence was 
deployed on behalf of the Republican candidate, an 
investigation feels politically uncomfortable for Republicans. 
But I respectfully urge you to recognize that while the focus 
of an investigation must necessarily be on our last election, 
the reason for an investigation is to defend our future 
elections, to defend our democracy itself. And that is an 
interest that we all share.
    If we are to withstand future efforts to manipulate us 
through hacking and disinformation, we must have the facts 
about how this effort worked and how effective it was. For this 
reason, a robust, independent investigation of the Russian role 
in our elections is needed, separate from and in addition to 
any appointment of a special prosecutor to look into criminal 
collaboration with such efforts.
    Again I thank you for inviting me to be here today. And I 
will do my best to answer any of your questions. Thank you.
    [The prepared statement of Ambassador Baer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
    
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador Baer.
    Mr. President, I'd like to begin by asking you a question 
because, as you mentioned, the textbook case here was 
originally Estonia's cyberwar, all surrounding originally a 
Soviet-era statute when you first entered office.
    Looking back, I wondered if you could walk us through that 
attack and maybe also answer how has Estonia prepared for that 
attack? Or was it prepared then? And 10 years on how have NATO 
allies like Estonia and the Baltic States prepared themselves 
for what is ongoing? And what can we do to help the Baltic 
States maintain their independence, free of Russian 
manipulation?
    President Ilves. Thank you, Chairman.
    Well, what happened in 2007 was, as is known in the jargon 
as a DDOS attack, a distributed denial-of-service attack, in 
which one floods servers so they can't respond. This was until 
our attack a common practice for extortion of small businesses 
that were online. This was, and the reason why to this day 
every history of cyberattacks starts with Estonia, is that this 
was the first time there was a clear link between a digital 
event, a major digital event and policy.
    Before that, I mean, there were probably millions of 
attacks that we don't know anything about but they were always 
things that never reached the press, or they were known but 
there was no obvious connection between policies. That is why I 
started off with von Clausewitz. I mean that was a punishment 
action.
    The way they work, two points need to be made. One is that 
the cyberattack does not penetrate anything. It works in a way 
that no one has access. But they do not get into the servers. 
Rather it is that government sites, newspapers, banks, even the 
European equivalent of the 911 emergency number was attacked--
we have 112 in Europe--those were subject to these attacks that 
made them inaccessible. And that is, I mean that was quite 
disruptive, would be I guess an understatement.
    We were actually better prepared than many because we had 
just gamed a possible DDOS attack because we were about to 
have--we had had just our first electronic elections. So we 
were better prepared. So there are ways to deal with this that 
you can deflect attacks on you.
    The second point about this is that the way these are done 
is that basically it is a unique form of public/private 
partnership. DDOS attacks are done by, rarely, by companies 
that spend most of their time sending out spam. The idea of 
spam is a shotgun approach: You shoot out these things to 
everywhere, using hijacked computers or bots or networks of 
bots known as botnets. Now, but you can take the same process 
and invert it and direct botnets to attack single servers, 
overloading the servers.
    Again, this is something that is done by criminal gangs 
that have hijacked computers to send out spam. The profile of 
the attack showed us that it was--they were rented out for a 
certain amount of time. And, in fact, the peak was on the 9th 
of May 2007. It started massively at an incredible level at 
00:00 GMT and ended at 24:00:00 GMT. And I asked the head of 
our CERT team, well, how is that possible? Why is that 
possible? It doesn't follow a Gaussian normal distribution to 
talk to them. They said, Oh, they stopped paying.
    And I said, What does that mean?
    And he said, Well, I mean they were rented.
    So the attack was designed to be on the Soviet or Russian 
anniversary of the end of World War II, which is for them May 
9th, for us it is May 8th. And they simply used that day to 
attack us as a political gesture.
    Chairman Royce. Thank you, Mr. President.
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    When we look at Putin's goals we see a clear aim of tearing 
down the United States and Western democracy and institutions, 
to cast aspersions on our values. Instead of telling the world 
Russia is great, Putin is subtly spreading the message you may 
not think Russia is great, but neither is the U.S., neither is 
NATO or the EU, neither is Western-style democracy. We are all 
down here in the mud together.
    Now, I have been around long enough to remember when a 
Republican President likened America to a shining city on a 
hill. But President Trump, when asked about Putin in a recent 
interview, seemed actually to draw an equivalency between 
American policies and Putin's tactics. When Putin was called a 
killer, President Trump said, and I quote, ``There are a lot of 
killers. Do you think our country is so innocent?''
    Let me start, let me ask all of you, let me start with 
Ambassador Baer, and anyone else who wants to weigh in, are 
American leaders killers? Are they the same as Putin? And what 
does it do for Putin's aims to hear that kind of talk coming 
from the President of the United States?
    And, Ambassador Bloomfield, as you described, doesn't this 
erode trust in the United States?
    Let me start with Ambassador Baer.
    Ambassador Baer. Thank you, Mr. Ranking Member.
    In a word, no. There is no equivalence between the United 
States and Russia. And our President should be able to state 
that clearly, as should our Vice President be able to state 
that clearly.
    I recently wrote a piece for Foreign Policy talking about 
the President who you alluded to, Ronald Reagan, and the fact 
that the comparisons between our current President and Ronald 
Reagan do not hold up because Ronald Reagan saw so clearly that 
America's military was strong but that America was strong 
because it was our military, because it had to do with our 
principles and the values that that military stands behind.
    And I think it is very important that we not lose sight of 
that because that is exactly the distraction that Vladimir 
Putin would like us to submit to.
    What you talked about more broadly, I think, is what some 
have called ``weaponized relativism.'' This is a tactic that 
Putin uses to try to remove the focus on the failings of his 
own regime. And we should be clear that the failings of his own 
regime are not just international. His regime is failing 
domestically. He has stolen so much, his cronies have stolen so 
much, they have failed so completely to diversify that economy. 
Russia has the birthrates of Western Europe, the life 
expectancy of parts of Africa, and an undiversified economy. 
That is not a recipe for success.
    And as I said in my written testimony, you can't talk to a 
Russian diplomat these days for more than 5 minutes without 
having them talk about a multi-polar world that we live in. And 
I always want to say, okay fine, I will grant you the premise 
that the 21st Century is a multi-polar world. What makes you 
think that Russia is one of the poles?
    There is nothing attractive about Putinism as a system. And 
we should be very clear, even as we take very seriously the 
threats that Putinism poses, both domestically and 
internationally, we should take those threats seriously but we 
should never lose sight of the fact that we didn't get it 
wrong. The values that underpin American democracy, the values 
that are the foundation for the NATO alliance, the values that 
are universal values at the center of the European project, are 
the right values. They are the right prescription for a 
successful society. And we should never lose confidence in 
that.
    Mr. Engel. Thank you.
    Mr. Doran.
    Mr. Doran. Thank you, Ranking Member.
    In considering your question I would look directly at the 
exact purpose of this hearing today, you know: What is it that 
Russian disinformation attempts to achieve? I think it is very 
obvious that Putin does not want to make America great again. 
In fact, Putin has the opposite goal. However, our allies do, 
allies like front-line states, the Baltic states, Poland and 
others, neighbors of Russia, they actually want us to succeed. 
Russia does not.
    One of the things that we have seen is that Russia has 
field tested many of its propaganda techniques that it has 
utilized in Western democracies now, it has field tested these 
concepts and techniques in Central Europe, in front-line 
states. What we are seeing is not new.
    One of the points I would stress for the committee is the 
urgency and the speed at which these techniques are evolving. 
They are going from laboratory to field test to refinement 
rapidly. Our responses are slow. Our messaging is clunky. And 
we are combating a highly effective, well-funded effort that 
does not care about facts.
    One of the problems we face when we look at facts, when we 
look at what is true, is that, frankly, Russia is just fine 
with us stating our side of the debate. Russia does not mind. 
Because the more ideas are out there, the more explanations 
there could be for anything, the more relativistic 
interpretations of facts that we and others can put out, this 
assists Russia in confusing audiences, distracting from the 
main issue, and ultimately befuddling us into pointing fingers 
at each other and not keeping the shields faced toward Moscow.
    Mr. Engel. Thank you.
    I want to ask Ambassador Bloomfield, as you described, 
doesn't this erode trust in the United States, what our 
President has done, what our President has said?
    Ambassador Bloomfield. Thank you, Ranking Member Engel.
    I am not going to involve myself in talking about specific 
statements. I will say that President Trump is my President. 
President Obama was my President. I am an American. I vote. 
Elections matter. However, we have a vigorous set of checks and 
balances. We have a free press. We are absolutely free to 
challenge the people we have entrusted with power, and do 
challenge by every act that we take in the public interest. So 
that is perfectly legitimate.
    That is why we are robust. And, look, in American history a 
lot of things have changed from the agrarian age to the 
industrial age to the information age. This is a time of 
change. This was a change election. And it doesn't mean 
politically it was a change election, it means that America 
needs to adapt. Republicans and Democrats, you need to come 
together and figure this out. And, as we always have, we need 
to own the future.
    I would simply conclude by----
    Mr. Engel. But not adapt with Russian interference. We want 
to prevent Russian interference.
    Ambassador Bloomfield. We need to call them out.
    But my point is, consider their center of gravity, their 
weakness: They are very brittle. Look how much they are trying 
to--look at the information age. Information is omnipresent, 
but they are trying to control the media. Russian television 
never told the Russian people that they had troops in Ukraine. 
They hid the fact. So they are extremely vulnerable to a 
reverse information campaign from the West.
    Chairman Royce. Thank you.
    We go to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
Ranking Member.
    Well, as all of us know, despite renewed interest in Cuba 
and not Russia--I was going to get to that soon--the 
undermining of U.S. interests by Vladimir's regime is nothing 
new. We have seen his interference throughout Latin America, 
and my native homeland of Cuba, throughout the hemisphere. 
Nothing new. From its military campaigns in Georgia and 
Ukraine, to its propaganda and misinformation campaign in 
outlets like Russia Today or RT, to its support in Syria and 
Iran dictatorships and throughout Latin America, Putin's regime 
has undermined the United States and our allies at every turn, 
expanding its influence and corruption, showing nothing but 
contempt for human rights and the rule of law.
    Many of us have been pushing for a stronger stance against 
Russia for a long time, arguing against the Obama 
administration's reset in relations, as well as the Bush 
administration's proposed Civil Nuclear 123 Agreement. After 
Russia's actions in Georgia we warned about potential 
interference in Ukraine, as well as additional Russian pressure 
in the Baltics, in Kazakhstan, in Moldova, so many places.
    And one effort I strongly argued against was the repeal of 
the Jackson-Vanik amendment which would grant Russia Permanent 
Normal Trade Relation status, just one more item in a long list 
of concessions to Putin in recent years. And I have 
consistently been arguing for additional sanctions on Russian 
officials for their human rights violations, pushing for 
passage of the Sergei Magnitsky Act. Many of us have been 
active in that to add more names to that list.
    And my friend Eliot Engel and I led resolutions calling for 
investigations into the murder of opposition leader Boris 
Nemtsov, as well as sanctions against all of those responsible. 
And I have been calling for sanctions against those who 
poisoned Vladimir Kara-Murza, who has been coming to DC many 
times. He has been a leader in Russia on human rights. He is 
now just recovering from a second mysterious attack.
    But as with so many of our sanctions, sanctions against 
Russia have never been fully implemented, have never been fully 
enforced, diluting their effectiveness. That is why I am 
supporting the effort to limit executive waivers on our Russia 
sanctions, just as I have consistently moved to limit the 
ability to waive sanctions on Iran, on the Palestinian 
Authority, so many entities and areas.
    I would urge my colleagues who support the removal of 
waivers on Russia sanctions to join me in eliminating other 
such waivers because they water down the impact of our 
sanctions. In order to do that, in order to remove those 
sanctions, then we can have a more successful and consistent 
approach across the board everywhere.
    So two questions for the panel. Have we done enough with 
our NATO allies to help against Russian aggression in that 
region? And if not, why do you think that is?
    And, secondly, how can European countries cooperate within 
themselves more closely on enforcing sanctions against Russia? 
And do you believe that there will be greater hesitancy to do 
so or more cooperation? Whoever would like to answer.
    President Ilves. I will start off. Thank you.
    Well, we have two problems. And the first problem is the 
complete asymmetry of the various attacks we see. Because, as 
Ambassador Bloomfield and Ambassador Baer mentioned, we can't 
do to them what they do to us, meaning us in the West. I mean 
it does no good to make up fake stories. I mean, the real ones 
are bad enough. But if you don't communicate them, you can't 
get through. RFE/RL where I worked for 10 years used to do 
that. But no one listens to shortwave anymore.
    And ultimately, what are you going to do anyway if all of 
the bad news about corruption and the offshore money and all of 
that is not going to get anywhere anyway? And if someone 
republishes it there, they get in trouble or receive the fate 
of Navalny.
    So that's an asymmetry; we can't do to them. And ultimately 
if you are the ones counting the votes, you are not going to--I 
mean, in an authoritarian one-party state you are not going to 
influence the outcome of the election. I remember the 
television screen shot of the votes in Rostov-on-Don, which 
showed Vladimir Putin with 134 percent.
    Chairman Royce. Mr. President, on that note we are going to 
need to go to Mr. Brad Sherman of California.
    Ms. Ros-Lehtinen. I think Cuba uses those same things.
    Mr. Sherman. We are here today because this goes beyond a 
foreign policy issue. This is an issue for the core of 
America's democracy. The key issue is did the Trump campaign 
collude with Russian hackers in the cyber burglary of the 
Democratic National Committee and related entities?
    And a related question is whether Trump's gratitude is 
preventing an appropriate response to Russia's interference 
with democracy? Or whether his fear of what they might have on 
him is preventing that appropriate response?
    Mr. Chairman, we need more than one hearing on this 
subject. And we need, ultimately, a 9/11-style commission. That 
is why so many of us have cosponsored the Protect Our Democracy 
Act.
    The ranking member mentioned his bill, the Engel-Connolly 
SECURE Our Democracy Act because we do need tough sanctions to 
respond to what Russia has done.
    And, ultimately, we need a special counsel or special 
prosecutor in the Department of Justice. I formally urged 
Loretta Lynch to appoint one. She said no. Now various 
Republican members of the House are saying yes.
    I want to put in the record an effort by our minority staff 
of this committee to just list some of the investments--the 
connections and meetings between the Trump campaign and Russia 
and its officials. I have been involved in seeing this from a 
political side and I know how tough it is to get a meeting with 
senior officials in a political campaign. If you can't deliver 
a whole lot of money or a whole lot of votes, you are not going 
to get the meeting. So I would think in a campaign you would 
want to spend as few minutes as possible with foreign 
Ambassadors.
    Ambassador Baer, does the British or Indian Ambassador get, 
you know, a large number of meetings with senior officials? I 
mean, I am sure they would like them, but do they get them when 
they seek them or is it typical to just do as few minutes of 
meeting as possible?
    Ambassador Baer. I am sure there are others who are much 
better placed to answer your question on a kind of, on a 
consistent basis. But just anecdotally it was, it was not 
uncommon for me, with the 56 other Ambassadors at the OSCE, to 
get a request from one of them that they had an official maybe 
in their government who was traveling to the U.S. and who 
wanted to meet with one of the campaigns. I am not aware of any 
of those requests actually being fulfilled for precisely----
    Mr. Sherman. They want them. Campaigns are focused on----
    Ambassador Baer. It is difficult, yes.
    Mr. Sherman. I want to turn your attention to the 35-page 
dossier put forward by Christopher Steele, who is the British 
spy or former British spy. And keep in mind he was paid by 
Trump's enemies. Nothing in that dossier has been disproved. 
Parts of it have been proved to be true. And I hope to God that 
parts of it are not true, particularly the salacious part.
    The Trump administration has just called the whole report 
garbage but they haven't denied specific parts of it, except in 
one case that I am aware of. And that is the report says that 
Michael Cohen, Trump's personal lawyer, met with Russian 
officials in Prague. He responded by tweeting the front of his 
passport and stating, ``I have never been to Prague in my 
life.''
    Now, obviously the front of the passport doesn't teach us 
anything, but it causes us to want to look inside the passport. 
But, Ambassador Baer, isn't the Czech Republic part of the 
Schengen Zone so an American visiting Prague typically wouldn't 
have a Czech Republic stamp in their report? They fly into 
Paris, they fly into Frankfort and only be stamped there. Does 
the absence of a Czech stamp mean an American hasn't been to 
Prague in their life? Simple question.
    Ambassador Baer. No. The absence of a Czech stamp does not 
mean that an American hasn't been to Prague. I have been to 
Prague and I do not have a Czech stamp, I believe, in my 
passport.
    Mr. Sherman. But you have been to Prague in your life?
    Ambassador Baer. I have, yes. I drove there from Vienna.
    Mr. Sherman. And then finally I would address you and then, 
if we have time, the other members. This is a 35-page report 
that talks an awful lot about the internal machinations of the 
Russian Government. I assume most of you have read the report. 
Does it ring true? Is that the way things happen in the 
Kremlin? Ambassador Baer?
    Ambassador Baer. I think, obviously, that the Kremlin is a 
very complex organization but I think it is fair to say that 
the Kremlin operates in a way that is difficult for us to 
imagine because it is so driven by the corrupt and 
authoritarian----
    Mr. Sherman. And, Mr. Doran?
    Mr. Doran. When it comes to how the Kremlin is operating 
does it ring true? Obviously this committee is in a much 
better, and other committees are in a much better position to 
answer that question. I would say that, clearly, Russia's 
system of government is fundamentally different than ours. And 
I would stop there before----
    Chairman Royce. We have to go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Well, here we are. Wherever you go, there 
you are.
    Let me just note that we just keep hearing sinister words 
after sinister words. Especially this last thing, oh, how 
sinister it is that he just showed the top of his passport. 
Give me a break. Come on.
    And, also, we got instead of a sinister report from your 
question to the Ambassador, no, it is not uncommon for people 
to meet with foreign Ambassadors and foreign diplomats. And how 
sinister is it that people met with a Russian Ambassador? I am 
sure that if they were going to plan something really rotten 
about the United States they would go to the Ambassador, the 
Russian Ambassador rather than some political operatives that 
they have running all over the place. This has, this has 
reached the absurd level of attacks.
    And let us note, that in order to get Russia, what we are 
now doing is destabilizing our own democratic system here with 
that kind of nonsense.
    I will have to say that during the Cold War, I want to 
remind everybody, I worked not only with President Reagan but 
my entire life was dedicated to defeating communism. I felt 
really great when Ronald Reagan helped us establish peace and 
the elimination of communism from Russia. We are now dealing 
with a national power. You know, it is a big power in the 
world. It is no longer being motivated by communist ideology 
that has it trying to overthrow democratic governments and 
replace them with atheistic communist dictatorships.
    And you expect Russia, and I agree, they are being run by 
tough guys, sort of like Mayor Daley in Chicago is transported 
over to Russia. Oh, you love Mayor Daley do you? Okay. I don't. 
I thought Mayor Daley was a tough guy who beat demonstrators up 
and did not represent anything that America was all about. But 
he was not some vicious dictator. He had been elected by his 
people. And we would try to un-elect him as well.
    What is happening in Russia, of course, is you have a 
country watching out for its national interests. Mr. Chairman, 
I would have preferred to have at least one person on this 
panel, like perhaps former Ambassador Matlock, who could have 
balanced it off a little bit on some of these questions. And 
instead what we have is, again, an unrelenting hostility toward 
Russia that is going to lead us to war if we don't watch out. 
And I don't know who wants war in this country, but I was very 
happy when Ronald Reagan ended the Cold War by reaching out to 
Russia. And they ended up discarding their Marxist-Leninist 
bologna that had threatened the world for so long.
    Let me ask our former President of Estonia, could you give 
me--well, first of all, the Russian cyberattacks, were there 
any demands on Estonia that you didn't meet that they, some of 
the big guys demanding something and you say, no, we are not 
going to do that, and then they retaliated by trying to hurt 
you?
    President Ilves. Well, they demanded that we not remove 
this statue which----
    Mr. Rohrabacher. Okay.
    President Ilves [continuing]. People were against having. 
And that is the result.
    Mr. Rohrabacher. Okay, so that's it. There was a demand and 
the Russians acted like bullies and they were going to get 
their way with a cyberattack.
    Okay. Second question. Could you give me some examples of 
the military aggression that your country has suffered from 
Russia in the last 10 years?
    President Ilves. Well, probably the most prominent example 
is the kidnaping of----
    Mr. Rohrabacher. Right.
    President Ilves [continuing]. Of the equivalent of our FBI 
who was investigating a massive cross-border cigarette 
smuggling operation.
    Mr. Rohrabacher. Right.
    President Ilves. Which could not take place without the 
connivance of the FSB since they manage the border.
    Mr. Rohrabacher. Let me add something. You had a situation 
of corruption at the border. One of your border guards 
disappeared. I mean military aggression? Has there been any 
cross-border at all military action on the part of the Russians 
in Estonia?
    President Ilves. Well, we have constant violations of our 
border by military jets. That is one thing.
    Mr. Rohrabacher. Right.
    President Ilves. And that is consistent. But has massively 
increased in the last 4 years.
    Mr. Rohrabacher. Yes. I went to the Baltics about 3 years 
ago after I heard story after story after story of Russian 
military aggression in the Baltics. I am sure all of you have 
heard that slogan before. Not one report of actual military 
aggression.
    And here we are sending our tanks up there, having B-52 
mock raids on Russia over Estonia toward the Soviet capital in 
the name of stopping Soviet military aggression that never 
existed. This has got to stop or we are going to end up in war. 
Let's try to, let's try to have a little balanced view of what 
is going on here.
    Mr. Chairman, I would ask 15 seconds more from my 
colleagues. Look, the United States, we have engaged in some of 
these activities. We have. You remember the Phoenix Program in 
Vietnam? I remember the Phoenix Program. I supported the 
Phoenix Program. We murdered hundreds of local officials. How 
about Allende? How about Diem? How about any number of people 
during the Cold War that we assassinated.
    Chairman Royce. The gentleman's time----
    Mr. Rohrabacher. Okay. That is wrong, it is wrong to do 
that.
    Chairman Royce. The gentleman's time has expired.
    Mr. Rohrabacher. But please do not say that Russia is the 
only country that commits these kind of crimes.
    Chairman Royce. It is time to go to Mr. Gregory Meeks of 
New York.
    Mr. Meeks. Thank you, Mr. Chair.
    I tell you, my good friend Mr. Rohrabacher, but I am going 
to, you know, resist because it is important that we focus on 
what is important for the United States of America. It is 
important that we make sure that we preserve our democracy. And 
it is important that we make sure that we hold up the 
institutions of the United States of America.
    And I think what I have heard from just about every witness 
and at every corner, one of the things that Mr. Putin wants to 
do and wants to accomplish is to undermine institutions and to 
undermine and get involved with the destruction of Democratic 
states. And when I hear not just from--and I am hearing this 
from countries from around the world. And I thank the former 
President for being here because it is tremendously important 
we hear from our allies in that regard.
    And that is why, you know, when I look at threats to our 
democracy I think it is important that we have a 9/11-style 
commission set up. That is why we had the 9/11 Commission in 
the first place; it was a threat to our democracy. So we had an 
independent commission so that we could make sure that does not 
happen.
    So the markup of the Swalwell and Cummings Protect Our 
Democracy Act is tremendously important for all of us because 
that is what is at stake, that is what they are trying to get 
at. And, you know, and I also want to join with the ranking 
member when he said we need a markup on the Engel-Connolly 
SECURE Our Democracy Act. That is tremendously important.
    And I thank the chair, who indicated that we would have 
some hearings on Russia. And he kept his word. And we know that 
there will be more and with the witnesses. So I want to thank 
the chair for doing that. And I agree with his and Mr. Engel's 
opening statements.
    You know, I am concerned. Maybe I will ask Ambassador Baer 
because what I am concerned about, as I say, is Mr. Putin 
getting his way because what I am unfortunately hearing, 
somewhat similar to Mr. Rohrabacher actually, from Mr. Bannon 
in the White House who calls for the deconstruction of the 
administrative state. As opposed for us working to forge our 
values and basically our lives and protecting and supporting 
those who fight for liberty, equality and justice in the world, 
it seems that the Kremlin wants us to retreat from the world. 
He wants our values to be diluted.
    But with President Trump's repeated moral equivalencies--
and I think that's what Mr. Rohrabacher was talking about, that 
we are just as bad as Russia, et cetera--those are those moral 
equivalencies that I, unfortunately, am hearing from the 
President of the United States. When there are attacks on our 
free press, and when there is out and out lying going on, when 
there are ongoing conflicts of interest, when we have the kind 
of dialog like we just heard, doesn't that already put Mr. 
Putin where he wants to be? And isn't that then giving him, and 
the administration even giving him, what he wants: To undermine 
us, Mr. Ambassador?
    Ambassador Baer. Thank you. I think here it is important to 
remember what Ambassador Bloomfield said, which is that, 
absolutely, when we allow ourselves to be divided on a partisan 
basis or allow our politics to act as fuel Russian propaganda 
rather than the problems of the American people, we are doing 
Vladimir Putin's work for him.
    Congressman Rohrabacher knows that I enjoy a good debate 
with him. We have had the pleasure several times. I think the 
important thing about what Congressman Rohrabacher said, he is 
right that there is no longer an ideological drive that drives 
Moscow to try to undermine democracies around the world. But 
there is a deep insecurity that drives Moscow to try to 
undermine democracies around the world.
    Vladimir Putin's greatest fear is a democratic, successful, 
prosperous Ukraine. That is why he is invading Ukraine and 
trying to undermine the Ukrainian people's choice to live in a 
European-style democracy. He is threatened by democracy's 
success. And, therefore, every time that we make democracy 
succeed we are countering Vladimir Putin's aims and objectives.
    Mr. Meeks. Thank you. I only have 5 seconds so I yield 
back.
    Chairman Royce. We will go to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    And, first, I would just note that it is my opinion that in 
recent years America's traditional leadership role around the 
world has been in great retreat. And this has left a power 
vacuum all around the globe, from the South China Sea where you 
have China building not only islands but militarizing them, and 
in the Middle East where, because the U.S. after sustaining a 
victory--obviously at high cost and one that was very 
controversial, ultimately as a result of the surge we had 
prevailed there--the U.S. pulled out and then we saw the chaos 
that ensued with the growth of ISIS, et cetera. And now in 
Eastern Europe and the countries along the borders of Russia we 
have seen a vacuum there.
    And as a result we have seen, for example, the invasion of 
Crimea and the West basically lamely protesting but ultimately 
doing little or nothing. And I want to commend my colleague on 
the other side of the aisle, Mr. Connolly, for in that invasion 
of Crimea he has stood up relentlessly against the Russian 
action there and encouraged, along with myself and others, 
encouraged us never to recognize Russia's takeover of Crimea.
    But you've seen all the countries in the region fearful, I 
think for good reason. The ranking member mentioned before our 
President's comment about how we have a lot of killers and, you 
know, you think that we are innocent, we being the United 
States. I think that was a stupid comment. But it was a 
comment. Unfortunately, we have seen actions or lack thereof 
which I think have been even more damaging. One was pulling out 
of the deal that we had with Poland and with the Czech 
Republic.
    We had a missile defense arrangement that we had with them. 
We pulled out of that immediately because the Russians didn't 
like it. And now there is criticism because this administration 
is too close to the Russians. But that was something that I 
think was a very bad decision early on. We saw the failure 
really to do anything in Crimea. We have seen the failure to 
provide the Ukrainians--despite the fact of Russian aggression 
in their east, the administration has refused to provide lethal 
weapons, which we ought to do. And I would encourage this 
administration to do the same thing.
    I could go on. I have only 5 minutes. So, Mr. Doran, let me 
ask you this. Some of our colleagues, let's just say to the 
left, have basically accepted the premise that this election 
was stolen by the Russians and given to this President and, 
therefore, he is not a legitimate President. And that is one of 
the issues that is being looked at here. But it is far beyond 
that.
    How does this fit in with Russia's overall goal of 
undermining democracy, the United States, or our western 
European allies, NATO? How does the constant that maybe half 
the American population sort of thinks that that is the case, 
how does that benefit Russia in all this and how does it hurt 
us?
    Mr. Doran. Very briefly and directly, I do not believe that 
we should view this as a partisan issue. I also believe that 
Vladimir Putin is not about picking winners and losers in 
specific elections. Vladimir Putin is about creating chaos and 
division in our ranks. As long as we are chaotic, divided, as 
long as our publics, both here in the United States but 
especially in front-line Europe, begin to doubt the efficacy of 
democratic institutions, the ironclad nature of America's 
promises, or the fighting power and defending power of NATO, 
that is what Vladimir Putin wants.
    The means is propaganda, as you pointed out, Congressman. 
And the aim is to, as I said, to distract us, to divide us, and 
to ultimately paralyze us. As long as we are having these 
efforts here in the West, Vladimir Putin can, not in one big 
swoop but in a series of small slices, systematically alienate 
and isolate our allies and partner countries. Disinformation is 
a means to achieve that.
    Mr. Chabot. Thank you.
    Chairman Royce. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman. Thank you to our 
members of the panel.
    You know, to me Putin is a throwback to all of the Cold War 
that has morphed into what they couldn't beat us militarily, so 
now they try to disrupt everything that we stand for: Our 
democracy, freedom of the press, our elections. And I think 
this past election just woke people up to actually the efforts 
of Putin on what he is trying to do--his unrelenting effort to 
destroy this country and the institutions of this country.
    So to me it was amazing that all of a sudden people woke up 
that this guy is trying to do this to this country. He has been 
doing that all around the world. He is disrupting Europe. He is 
trying to disrupt Central America and South America. So when it 
came time for this election and the influence of the Russians 
on the election, I think it is legitimate. I think we should 
have a 9/11 commission to look at all these contacts.
    You know, the last commission was led by a Republican, Tom 
Kean. And it was put together very well and it was accepted by 
both members of this body and this country. So to have a force 
like Putin out there trying to disrupt us all the time, we have 
to be on our best guard. And we have to meet him, I think, 
everywhere he challenges us. If it is Europe, we have to be 
there to assist the Europeans. If it is in Central America, we 
have to be there.
    So does anybody have any doubts that he was working with 
WikiLeaks and Assange to put all those things out? Anybody on 
the panel have any doubts? No. So what was that all about? It 
wasn't because he's such a nice guy that he wanted to help us 
with this election and get the truth out there.
    I really have nothing good to say about Putin. And I am 
afraid I am going to get carried away and really say the things 
that I feel. I mean, I experienced communism. I experienced 
what they did to me when I was 11 years old. I experienced the 
indoctrination process in the schools. And I experienced the 
media telling how bad this country was. It is so bad that you 
come to this country as a refugee and you are sitting here 
today and you are making laws for the rest of the country 
because I had the privilege of becoming a citizen. And that is 
pretty strong. So, to me, I better just stop, Chairman, because 
I----
    Mr. Connolly. Would you yield?
    Mr. Sires. Yes, sure.
    Mr. Connolly. Thank you for your powerful testimony. And I 
know your personal experience, Mr. Sires, undergirds your 
motivation here in the United States Congress, and certainly on 
this subject. Your sincerity can't be questioned. And I think 
all of us salute you and honor you for us.
    If I may, Mr. President, in your response to Mr. 
Rohrabacher surely you could have cited more than cigarette 
smuggling. Is it not true that the Russians have been testing 
air space in the Baltics in a provocative way, testing NATO 
defenses and, for that matter, your own respective defenses?
    President Ilves. Thank you. Well, I didn't get to finish. 
But that was a military action. Troops came over and kidnaped 
this guy. This was not done, I mean their----
    Mr. Connolly. Russian troops?
    President Ilves [continuing]. FSB, KGB troops.
    Mr. Connolly. Violating your sovereignty?
    President Ilves. Our territory. And they took him, yes.
    Now, I mean more broadly we have massive--we have on the 
other side of the border we see constant, massive exercises. 
Zapad is this main exercise----
    Mr. Connolly. Right.
    President Ilves [continuing]. That takes place every 2 
years, you know, violating through various techniques.
    Mr. Connolly. And real quickly, Mr. President, because I'm 
going to run out of Albio Sires' time, these were provocations 
generated on the other side of the border, not on your side of 
the border?
    President Ilves. Right.
    Mr. Connolly. Is that correct?
    President Ilves. Yes.
    Mr. Connolly. Because I think there was a suggestion by my 
friend from California that it was the other way around. That 
is not true.
    President Ilves. I will just add quickly that it is not 
just us. I mean, they do mock bombing raids on Sweden, so it is 
not just us.
    Mr. Connolly. And no one does that.
    Chairman Royce. The gentleman's time has expired. We now go 
to Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    As chairman of the Homeland Security Committee I have been 
dealing with the cyber threat for quite some time from many 
foreign adversary nations. The Chinese stole 20 million 
security clearances, including my own. The North Koreans, a 
very devastating attack on Sony Pictures. Iran getting great 
capability now, not as good as ours but they are getting 
better.
    This latest cyberattack on the Central Intelligence Agency 
Vault 7, stealing over 8,000 pages of documents with some of 
the most highly sensitive cyber weapons, cyber tools in the 
United States Government now stolen, allegedly, by WikiLeaks as 
they dump it out to the public. This is going to have 
devastating consequences to all of us here because it hands to 
our foreign adversaries the keys to the kingdom.
    And then we get to Russia. Sir, Estonia, we all know the 
story there. And my condolences. They shut down Estonia in one 
of the first acts of cyber warfare.
    I got briefed on the Russian threat through our elections 
when it was in the classified space when the Obama 
administration was in power. And my advice to them was we need 
to call them out for what they are doing. And we have to have 
consequences to those actions.
    The response was, we don't want to acknowledge publicly the 
threat.
    Then under now President Trump, the same briefing with the 
same advice. And I think the President has now finally 
understood when he had the classified briefing that it was in 
fact a nation state attack by Russia on the United States 
against our democracy. And I don't care whether it is 
Republican or Democrat, I care if it is an American election 
being challenged, being influenced by a foreign adversary, 
particularly one like Russia.
    So my question very simply to the panel to the extent there 
is about 2 minutes and 40 seconds left: You know, I have five 
teenagers, if there are no consequences to bad behavior, guess 
what, bad behavior continues. We have no international norms, 
no international standards when it comes to cyber, whether it 
be espionage or warfare. To the panel, I will start with you, 
Mr. President, what do we have to do, what should be the 
consequences when Russia threatens not only our European allies 
but your country and NATO and now the United States of America 
and our democracy?
    President Ilves. Well, I would start--thank you very much--
I would start with the Tallinn Manual 1.0 and Tallinn Manual 
2.0 which were produced by the NATO Center of Excellence for 
Cyber Defence in Estonia. I should say no reason--you don't 
have to feel too sorry for us because having asked NATO for 
years to deal with cyber, after the Russian attack NATO decided 
to actually build a center and they put it in my country. But 
that Center has produced two books on the international law and 
how it applies to cyber. That is the beginning. But there is 
still a long way to go on that.
    We do need to think about genuine conventions. There 
probably is one convention right now, and that is the Budapest 
Convention on Cybercrime. The problem is that the primary 
sources of cybercrime--Russia, China, North Korea--have not 
acceded to it, which means that it is basically inoperative in 
those countries that are producing the bulk of the cybercrime.
    Here I mean credit card theft, all kinds of extortion 
schemes and so forth.
    Mr. McCaul. Ambassador.
    Ambassador Bloomfield. Thank you, Chairman McCaul. There is 
a lot of work that could be done to make our cyber policies 
more robust and more specific, more combined with our NATO 
allies and the European Union. We should have that conversation 
at the technical level and at the political level.
    I think that working with parliamentarians between the 
Congress and our allies, that is a good conversation. We have 
expertise on The Hill. So I applaud that.
    I really come back to the way to defeat Putin--because 
there is something slightly pathetic about the way the Russians 
are trying to meddle in democracies--is to seize the moment of 
change. Forget about Russia, there are things that need to be 
done here. We need to reform our agencies and tools and 
processes. There is a lot of flux in Washington right now. As 
the coach of my favorite professional team says, ``Do your 
job.'' If we all do our job, we will come out stronger. We will 
own the future; they won't.
    Now, there is retaliation, and I have laid it out in my 
testimony, of things that we should consider. He is a very 
brittle, dangerous actor. We should engage him where we can. 
And I want to tell Congressman Rohrabacher, we did it under the 
Bush administration. We did--I wouldn't do it today--military 
exercises, 33 a year. We went to Russia for bilateral talks on 
terrorism; we did a lot. But now there should be consequences. 
And I suggest these in my testimony.
    Mr. McCaul. I would like to have written testimony from the 
other two witnesses. Thank you.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


    Chairman Royce. Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you for 
holding this hearing. I thank the ranking member as well. I 
hope it is the first in a series of robust hearings.
    This is about our country. This is not about party. It is 
not about defending a President or attacking a President, it is 
about our country. We have seen--and by the way, my friend from 
California compared, apparently, Vladimir Putin to the late 
Mayor of Chicago Richard Daley. I went to school in Chicago 
during his mayoralty. I didn't know him. But I assure you, 
Vladimir Putin is no Richard Daley. Richard Daley didn't have 
his political opponents assassinated. He didn't send them into 
exile. He didn't put them in prison. He didn't silence the 
press. He didn't assassinate members of the press. He didn't 
exile members of the press. He sparred with them. And sometimes 
he was bested.
    The late Mike Royko made a career out of making fun of 
Richard Daley, and a very good career at that. Never, never was 
there a movement to silence or fire Mike Royko. There is no 
comparison. And I think we do ourselves a disservice by not 
recognizing, on a bipartisan basis, the gravity of the 
situation we face: A massive propaganda effort by Russia to 
basically distort truth and to have an alternative view of 
reality.
    We have a massive cyber operation run by the Russians 
undermining our allies, undermining the West, undermining now 
our democratic process in the United States of America and, of 
course, the undermining of democratic institutions and the 
Western alliance itself.
    My question, Ambassador Baer, is in light of all of that 
why, what is the speculation that a new administration led by 
President Trump would seemingly enable that, so that when 
confronted the answer is: ``Well, we do it too. I don't believe 
it. The intelligence community is distorting reality and making 
it up.'' And very reluctantly acknowledging any reality. And 
then we discover numerous members of the administration have in 
fact have contacts with Russian intelligence officials and the 
Ambassador. And what is interesting is kind of covering that 
up.
    If you have nothing to hide, why not just freely say, yeah, 
of course I met with the Ambassador? I meet with Ambassadors. I 
know the chairman and the ranking member do. I haven't met with 
the Russian Ambassador, nor would that be a meeting I would 
forget.
    But I wonder if you could help me understand or shed some 
light on why in the world would any American administration 
want to be enabling, seemingly, this pernicious, insidious 
effort by the Russian Government?
    Ambassador Baer. To answer your question directly, 
Congressman, I don't believe that any administration of the 
United States, whether Democratic or Republican, should be 
working to enable any other government, particularly one that 
is an autocratic regime.
    I think your question highlights that there are two 
separate issues at play. And I guess we have been focused on 
the first, which is the issue of what exactly was the nature, 
you know, it is my perception that the Russians perceive their 
engagement in our elections to have been the most successful 
Russian intelligence operation since the end of the Cold War. 
We need to understand what happened, why it worked, what worked 
and what didn't work and, you know, how that played out, so 
that we can figure out how to defend ourselves, what 
appropriate countermeasures are, and what appropriate 
consequences are. That is one set of issues. That is a national 
security issue, as you and others on both sides of the aisle 
have highlighted.
    There is a second set of issues that is about the 
allegations that have arisen about the possible collusion of 
certain officials with that effort. And that is not my area of 
expertise. That is obviously a legal issue as well as a 
national security issue, and that is not my area of expertise. 
But I think the investigation is something that we should all 
agree is a national security issue that we all have an interest 
in.
    Mr. Connolly. You would agree that it would be harmful to 
U.S. interests to undermine NATO?
    Ambassador Baer. Without question.
    Mr. Connolly. So to call NATO obsolete might be harmful.
    Ambassador Baer. NATO is not a charity project for our 
European allies. NATO is strongly in the interests of the 
United States of America. The United States has a strong 
interest in a Europe that is whole, free, and at peace.
    Mr. Connolly. Would it be fair to say, also, that it would 
be harmful to U.S. interests to undermine the European Union?
    Ambassador Baer. Absolutely. The European Union, like the 
United States, is founded on timeless and universal principles 
and has the institutions to protect those. And that is why it 
is a threat to Vladimir Putin.
    Mr. Connolly. And conversely, if you were pro Russian or 
Vladimir Putin, the opposite would be true, it is in your 
interest to undermine NATO and in your interest to see the 
disintegration of the EU?
    Ambassador Baer. That might be a narrow political calculus 
that somebody might make.
    Mr. Connolly. Thank you.
    Right on time, Mr. Chairman.
    Chairman Royce. Thank you. We go to Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here.
    In 2008 the Russians invade the Republic of Georgia, take 
one-third of their territory, and the West basically said 
that's not nice, you shouldn't do it. The Russians still 
control and occupy one-third of the Republic of Georgia, 
supposedly an ally of the U.S. The world did nothing.
    The Russians then invade Crimea, conquer Crimea, put their 
people there, claim it is theirs. And the Russians are still in 
Crimea. And the West said, not nice, shouldn't have done it. No 
consequences.
    Then the Russians go into Eastern Ukraine where they are 
now and are trying to, I think, take a portion of the Ukraine 
that is valuable for energy.
    I met with the President of the Ukraine, asked him what we 
could do as a country. And he said, quit sending us MREs, 
canned food. And he was very blunt. They can't stop the 
Russians with MREs. But that is what the West has done. And the 
Russians are still in Eastern Ukraine. And the world says, not 
nice.
    Mr. Connolly and I serve on the NATO Parliamentary 
Assembly. We have been to those NATO meetings. We have 
encouraged the parliamentarians in NATO to have sanctions on 
Russia for their misconduct. And in my opinion--I can't speak 
for Mr. Connolly--in my opinion those parliamentary folks seem 
that they want to talk about other things other than the 
Russians. And meanwhile, no sanctions on the Russians.
    Why are we surprised that the Russians are doing all of 
these things? We aren't surprised. Because the West has 
basically said, it is not nice. And they continue to operate.
    When I have met personally with former Eastern Europe 
Soviet Republic officials--and I am not going to name them--
when I meet with them you know what they talk about? The 
Russians are coming. They are afraid that the Russians are 
going to come into their country and do what they have done in 
the past and that we in the West aren't going to do anything 
about it.
    So Mr. Putin, the individual that we are all talking about, 
is emboldened and points his chest out to the world that the 
Russians are coming. And he has said, or the foreign minister, 
as the chairman has pointed out, that we are working on a 
``post-West world order.'' They are serious about that. And 
they are doing everything to impose a new world order on the 
world. And maybe we should do something besides say that's not 
nice. And that seems to be the foreign policy of the West in 
dealing with the Russians.
    The Napoleon of Siberia, Putin, is going to continue these 
activities, whether it is in the Baltics or the Balkans, or 
Eastern Europe or other places, even in Syria, trying to show 
their post-West world order. Russians hack our elections. I 
think my friends on the other sides, I finally got their 
attention because the information that the Russians seemed to 
show to the American public was not very pleasant to the person 
running for President. And so the emails and contradictions and 
the DNC and all of that internal information was not good for 
the person running for President.
    I don't believe, and I think most people agree, that did 
not affect the elections. The Russians didn't hack into our 
computer system and change votes. But that has gotten the 
attention of my friends on the west--on the west--on the left I 
should say. Interesting, west/left. And now everybody is upset 
about the Russian hacking. Well, I don't think it affected the 
elections. But we need a policy of dealing with Russia.
    The saber rattling by some of my friends over in the 
Senate, you know, do they want war with Russia? Is that what 
the goal is here? Because I don't think it is. But we have to 
have a response to the Napoleon of Siberia besides it is not 
nice. And there are consequences for doing this. And they are 
not going to be pleasant. And so I think that we need to impose 
and get down to business to say what is our response? What are 
we going to do? And let's do something about it. Not talking 
about war but consequences, Mr. Napoleon of Siberia.
    And thank you, Mr. Chairman. Mr. Connolly, I appreciate 
your comments.
    Chairman Royce. Thank you.
    We go to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for holding today's hearing. I want to 
thank Ranking Member Engel for pushing for this hearing. I want 
to welcome our very distinguished panel.
    The American people, Mr. Chairman, want a full and a fair 
and a bipartisan investigation into not just what happened in 
this election, but they want an investigation into President 
Trump's connections to Russia. They want an investigation into 
his business connections, his campaign connections, his 
administration's connections.
    Today's hearing is on an important topic and our panelists 
have an important view. But this hearing will not give the 
American people the investigation that they deserve. Seventeen 
American intelligence agencies concluded that Russia executed a 
cyberattack against the United States. They concluded that the 
attack was designed to influence the outcome of the election. 
And they concluded that the attack was intended to benefit 
Donald Trump's campaign. How can we proceed with a hearing on 
Russia's involvement in Europe while ignoring the unresolved 
questions around this attack?
    What credibility do we have? If we were to look at attempts 
to splinter NATO we might first look to President Trump's 
criticism of that very body and his relationship with Russia. 
During the Presidential campaign Mr. Trump claimed that our 
allies don't contribute enough to our shared security. As 
President-elect, Mr. Trump was interviewed by European 
reporters and he took the opportunity not to reassure our 
allies but to write off our partnership with them as obsolete.
    This committee cannot seriously review Russia's attempts to 
undermine NATO without acknowledging these statements by the 
President about NATO and Russia. Throughout the Obama 
administration, Republican Members of Congress and this 
committee consistently criticized America's response to Russia 
as too weak. Yet here we are, 6 months after the intelligence 
community determined that Russia conducted a cyberattack in Mr. 
Trump's favor, and we are having a hearing in many ways as if 
that didn't happen.
    In the meantime, an overwhelming number of serious 
questions about the President's contacts with Russia have been 
met with obfuscation, with misdirection, and with outright lies 
from our own White House. Pretending otherwise is a disservice 
to this committee and to this country. We have learned that 
former National Security Advisor Flynn lied to the Vice 
President and the country about his contacts with Russian 
agents.
    We have learned that Flynn and presidential advisor Jared 
Kushner met with Russia's Ambassador in Trump Tower. And unlike 
every other meeting, the Ambassador was ushered into the 
building in secret, out of view of the press.
    Last week Carter Page, a previously disavowed policy 
advisor, admitted in two national television interviews that he 
met with the Russian Ambassador in Cleveland at the Republican 
National Convention.
    And we have learned that former Trump campaign manager Paul 
Manafort's claims that there was no involvement in the Trump 
campaign in efforts to soften language in the Republican 
platform related to our assistance to Ukraine were untrue.
    We have learned that Trump campaign advisor J.D. Gordon met 
with Russian officials in Cleveland with Carter Page and 
others. We have learned that they advocated for the change in 
the platform language.
    We have learned that Attorney General Sessions made false 
statements about his contacts with the Russian Ambassador under 
oath at his confirmation hearings.
    If the leadership and majority members of this committee 
are as concerned about Russian attempts to undermine democracy 
here as they are around the world then we need to move forward 
with that full investigation about all of these issues. Holding 
this hearing without acknowledging the Russian attacks on our 
own elections hurts our own credibility when fighting for 
democracy around the globe. I would ask every member of this 
committee, from both sides of the aisle, to join in calling for 
a bipartisan investigation to answer the questions the American 
people have about the health of our own democracy. Without it, 
those unanswered questions will be a thorn in the side of this 
committee.
    I would ask my colleagues on both sides to join in 
demanding an independent commission and a special prosecutor to 
do the job that the Attorney General is unable to do. Our 
responsibility on this committee is to exercise meaningful 
oversight of the foreign policy of the United States. And I 
commend the chair and ranking member for taking that 
responsibility seriously. But no one watching this hearing 
should rest any easier that we have examined Russia's 
relationship with the Trump campaign and the Trump White House.
    The American people must be able to trust their government. 
And until there is a full investigation into the Trump 
campaign, the Trump White House, and the Kremlin, and until we 
see the President's tax return to fully understand the extent 
of the Trump family's business relationship with Russia, the 
motives of the White House's foreign policy decisions will be 
in doubt at this very moment when American leadership is needed 
the most.
    I yield back.
    Chairman Royce. Mr. Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    Congressman Poe mentioned Russia's involvement with the 
sovereign state of Georgia. I will further piggyback that they 
annexed Crimea, invaded Ukraine in August 2014. We need to keep 
in mind in this committee that Russia sent a billion dollars 
worth of air defense systems to Iran in April 2015, just months 
before the P5+1 nuclear fiasco was signed, paid for, by the 
way, with billions of dollars after Iran signed the P5+1 
agreement, money they garnered from that.
    It is clear that Russia is an adversary to U.S. interests 
and those of our allies. I am pleased that the minority party 
sitting across the room finally acknowledges that. Many of them 
probably laughed when candidate Obama told candidate Romney 
that the 1980s called and wanted their foreign policy back 
because many of the comments I hear today resemble those from 
the 1980s. But hashtags don't invade Crimea, Georgia, or 
Ukraine, the Russians did.
    One of the first acts of the Obama administration was to 
remove defensive missiles from Eastern Europe. Secretary 
Clinton hit the red reset button with Russia. President Obama 
told the Russian President to let Putin know that he would have 
more flexibility after reelected. So the question to ask 
ourselves is who was weak on Russia?
    So I mentioned the previous President famously ridiculed 
his opponent in the 2012 Presidential campaign. I am going to 
ask the panel was that statement misguided? Start on the right, 
Ambassador Baer. Was that statement misguided?
    Ambassador Baer. I think that I have heard from both sides 
of the aisle today a desire which I subscribe----
    Mr. Duncan. It is pretty much a yes or no question, sir.
    Ambassador Baer. I would say no, that it was not misguided. 
Because there is a desire that has been longstanding on both 
sides of the aisle to avoid unnecessary conflict. It was a 
moment in which the opportunities from engagement seemed to be 
on the table.
    And I think the important thing for us now today is take 
the lessons of the last 8 years and recognize that engagement 
has not worked in the way that we wished it would and to----
    Mr. Duncan. Let's go to the next one.
    Ambassador Baer [continuing]. Deal with Russia accordingly.
    Mr. Doran. I will be very direct. I believe that Russia and 
Russia's leadership views itself currently in a conflict and a 
rivalry with the United States. Their own strategic documents 
define how they define war. And Russia views itself in a 
conflict with the United States right now. It doesn't have 
bullets or tanks or missiles it has used, but that is what we 
are looking at.
    Mr. Duncan. Next?
    Ambassador Bloomfield. I would say that job one with the 
United States is to be a global superpower, and that in that 
vein Russia does not measure up to us. So that whatever they 
do, they should be confronted by the superior model of American 
democracy. And I am not sure that Presidents under both parties 
have fully grasped the geopolitics of that.
    President Ilves. I really can't say anything about U.S. 
domestic politics, unfortunately.
    Mr. Duncan. Under the previous administration was Russia 
deterred or emboldened by American and NATO allies? Deterred or 
emboldened?
    Ambassador Baer. I think neither. Obviously we, we took a 
number of steps under the previous administration and we did 
far more than just say no or were disappointed, but we took a 
number of steps. And, obviously, those steps have not yet 
accomplished the objectives of that policy. And we have made 
attempts----
    Mr. Duncan. Appreciate you all eating up all my time as I 
have a two-word question: Deterred or emboldened?
    Ambassador Baer. Well, sometimes answers can't be given in 
two words. Pretending that a complicated----
    Mr. Duncan. And that is why I am giving you some leniency.
    Ambassador Baer. There is a sin in politics to pretend a 
complicated thing is simple or a simple thing is complicated. 
And this is a complicated thing. It is not simple.
    Mr. Doran. The early steps in the early part of the 
administration conveyed weakness to Russia. And Vladimir Putin 
took advantage of the weakness that we were communicating 
through our actions in the early phase of the last 
administration.
    Ambassador Bloomfield. I will say emboldened. But they 
would be trying to do it no matter what we did.
    President Ilves. Emboldened, but not thanks to the United 
States but rather the unwillingness of some of our European 
allies to take steps to deter them.
    For example, the inability of our European allies to accept 
even having contingency plans for the new members. So, in fact, 
the United States was the front, sort of took the lead on many 
of these issues. When many of our NATO allies did not want to 
frighten or offend Russia, the United States has been in the 
lead.
    Mr. Duncan. So, 2 seconds left. I would say that when 
Russia invades Georgia, annexes Crimea, invades Ukraine, gives 
missile systems or sells missile systems to Iran, other things, 
I would believe that they are more emboldened today because of 
the past policies. I agree with President Trump: Peace through 
strength. It worked under Reagan and it will work in the future 
with regard to Russia.
    With that I yield back.
    Chairman Royce. Karen Bass of California.
    Ms. Bass. Well, first of all I want to thank the chair and 
the ranking member. And I think really this hearing is an 
example of your leadership. And the recognition that this issue 
is much more important to our country than our last election. 
And I think one of the panelists said that this is really about 
our future elections and also our standing in the world.
    And with this in mind, I think that our NATO allies would 
benefit from an investigation, the 9/11-style investigation 
that is in the Cummings-Swalwell bill. And I am hoping that my 
colleagues in the other side of the aisle will join in the call 
for that.
    And I think about Estonia. I had the honor of visiting your 
country and going to the cybersecurity center. And I know that 
a lot of countries around the world studied what happened to 
Estonia.
    And I think just as we studied what happened to Estonia, we 
need to study what happened here in the United States. And I 
believe that one of the panelists said that this was Russia's 
most successful intervention in an election.
    I also, I think it was Mr. Doran who said a few times that 
the interference in our election was not about picking winners 
and losers but about creating chaos and undermining the 
confidence. And when I hear you describe that I am not just 
thinking about the election, but I am, frankly, thinking about 
the last 45, 46 days, because the chaos has continued. And in 
terms of undermining the confidence, one of the things that is 
so perplexing to me is that I can't understand why the 
President contributes to that.
    So saying things like 3 million people voted illegally, the 
crazy tweets that we are all experiencing day to day, it makes 
me wonder whether or not there is ongoing involvement of Russia 
in the administration. And I wanted to know if some of the 
panelists could comment.
    A lot of people question whether or not the President is 
compromised; whether or not the Russian's have some information 
on the President. I think about the unbelievable business 
entanglements that it seems as though we are learning more and 
more about every day, and I want to know your opinions about 
that. I want to know whether or not there is other examples 
around the world of where Russia has intervened, and one of the 
ways that they have continued to have influence is because of 
business entanglements.
    I also wonder if there are other people around the United 
States, other business folks that have such deep financial 
involvement. One of the theories out there--I don't know that 
it is a theory, I think it is really fact--which is Trump's 
business practices before winning the election were so bad, his 
number of bankruptcies, that no one in the United States would 
lend him money and he had to go over and he is in hock, not 
just to the Russian Government but also to individuals in 
Russia. And so I wanted to know if the panelists could comment 
about that? And maybe, Mr. Doran, Ambassador Baer, if we have 
time maybe everybody can. But if we could start with you two.
    Mr. Doran. I will be very brief. When I say that Vladimir 
Putin wants to create chaos and division among our ranks I 
would include Europeans with us. Our front-line allies in 
Europe are part of the Western alliance that stands against 
Vladimir Putin.
    Ambassador Baer. Thank you, Congresswoman. You asked a 
number of questions. One is about the continuation of Russian 
malign influence.
    Ms. Bass. Right.
    Ambassador Baer. And I think that is something that an 
investigation would expose.
    We know that Russian intelligence uses WikiLeaks as a 
distribution platform. And we have seen the attack on our 
intelligence agencies this week.
    Ms. Bass. Right.
    Ambassador Baer. Obviously that is a sign of the 
continuation of Russia's attempts to foment discord and chaos. 
And the important thing here is what they are trying to do is 
deprive us of the kind of civilized fact-based debate that our 
democracy depends on by feeding garbage into the system and 
causing us to divide in ways that aren't about civilized fact-
based debate. And so I would see those efforts as ongoing.
    I think, again, we are dealing with two sets of questions 
here. One is, what is the nature of the Russian malign 
influence, past and present, on the United States, particularly 
with a focus on the 2016 election where we know that they made 
a concerted effort there.
    Ms. Bass. Before I run out of time. Do you think this 
President is compromised?
    Ambassador Baer. That is something that is not in my area 
of expertise. Obviously there have been a number of 
administration officials who have had covert meetings with the 
Russians. That raises questions. That is a separate 
investigation, a criminal/national security investigation.
    Ms. Bass. Could they have information on him that if it 
comes out it is so overwhelming that he is compromised?
    Ambassador Baer. I think the American people deserve to 
know that. It is not something that I am capable of answering 
for you today.
    Ms. Bass. Thank you. Anybody else?
    Ambassador Bloomfield. I would just mention I read a 
Rolling Stone article this morning that said there is a great 
deal of speculation about what might be true that is not yet 
established, and that it is a very high wire and a long way 
down.
    Ms. Bass. And I hope we have better sources than Rolling 
Stone.
    Thank you.
    Mr. Perry [presiding]. The Chair thanks the gentlewoman. 
The Chair now recognizes himself.
    Just to put this all into perspective historically, at 
least from my point of view, I want to remind everybody that 
Alger Hiss traveled to Yalta with President Roosevelt when he 
sat across the table with Stalin. And it was Harry Hopkins who 
lived in Roosevelt's White house. And that doesn't even begin 
to scratch the surface.
    That having been said, Russia also attempted to hack the 
RNC during last year's election. And for my good friend from 
California, in 2016 the Russian Government planned to spend 13 
million rubles to preserve Lenin's body, which still sits in 
Red Square, in case anybody, including him, has any wonder 
about what the leadership in Russia believes in politically.
    So now let's talk about some compromise and some business 
connections. And these questions will go directly to the 
Ambassador and Mr. Doran.
    Skolkovo, which is located just outside of Moscow, is 
described as the sort of win/win deal that President Obama 
sought during Secretary Clinton's Russian reset. Skolkovo is 
Russia's own version of Silicon Valley and was developed with 
the cooperation and investment of major U.S. tech firms such as 
CISCO, Google, Intel, Microsoft and IBM, matching Russian brain 
power with American investment dollars and entrepreneurial 
know-how. Its mission included, among other things, 
breakthroughs in areas including energy, communication, 
sensors, and propulsion systems.
    Incidentally, 60 percent of the Russian, American, and 
European key partners made financial commitments to the Clinton 
Foundation or sponsored speeches by Bill Clinton.
    The questions are as follows: Did the Obama administration 
modify its posture toward Skolkovo once the FBI sent a letter 
to Boston-area companies and MIT in 2014 raising concerns about 
Russian-backed investment in U.S. high tech startups and 
issuing what was called an ``extraordinary warning'' to 
technology companies?
    Or did the Obama administration modify its posture toward 
Skolkovo once the U.S. Army Foreign Military Studies Program 
issued a report in 2013 declaring the purpose of Skolkovo was 
to serve as a vehicle for worldwide technology transfer to 
Russia in the areas of information technology, biomedicine, 
energy, satellite and space technology, and nuclear technology?
    Or how about in 2011 when Skolkovo approved the development 
of a hypersonic cruise missile engine directly in response to 
ours?
    And, finally, did the administration change its posture 
when cybersecurity experts also expressed deep reservations as 
early as 2010--cybersecurity, since that is a big issue, as it 
should be--that the U.S. companies working at Skolkovo may 
inadvertently be harming global cybersecurity since Skolkovo is 
the site of the Russia Security Service, or FSB's Security 
Centers 16 and 18, which are in charge of information warfare 
for the Russian Government, including information warfare 
operations against the Ukrainian Government?
    Gentlemen.
    Ambassador Baer. Congressman, you laid out quite a lot and 
I won't be able to respond to all of it. Let me just say that I 
think one of the strengths of the United States is the 
independence of our corporate entities. And, unlike Russia, we 
don't give orders to our corporations on what they do. And I 
think----
    Mr. Perry. But when we encourage them to collaborate and 
cooperate with our adversaries and people that are well known 
to want to steal and coopt our secrets.
    Ambassador Baer. I don't presume that----
    Mr. Perry. And then there are FBI reports and the United 
States Army reports, and then the intelligence community's 
report that there are cyber issues, the question is did we 
change our posture?
    Ambassador Baer. And I believe that we are venturing into 
territory that would include confidential information, so I 
want to be careful here about----
    Mr. Perry. Can you say yes or no?
    Ambassador Baer. Certainly when we get intelligence we do 
change our posture on a policy basis.
    Mr. Perry. Can you say yes or no?
    Ambassador Baer. And I think the important thing is that 
Skolkovo was a failure because of all of the weaknesses that we 
have been discussing about the Russian Federation today, which 
is that it has a brain drain, it cracks down in independent 
thinkers, and it can't be the Silicon Valley of Russia because 
only America is capable of creating Silicon Valley. So that's 
what we----
    Mr. Perry. Since you apparently want to answer this, tell 
me, having viewed Russia as an adversary, if not a direct 
enemy, for my whole life based on everything I have read, seen, 
and experienced, how was it in our best interest, how was it in 
the United States' best interest to transfer our technology and 
our know-how to Russia and encourage such?
    Ambassador Baer. First of all I don't think you will find 
anybody who knows me who thinks that I am soft on Russia. But--
--
    Mr. Perry. I didn't say you were. I am asking you about how 
this supports United States' interests and United States policy 
abroad?
    Ambassador Baer. Obviously we would never, the United 
States Government, no Democratic administration or Republican 
administration would ever pursue a policy whose objective was 
technology transfer to Russia. The fact is that we might pursue 
policies whose objective----
    Mr. Perry. But we knew when we made the agreement, the 
Secretary knew that the Russians would actually require patents 
and technologies to remain in Russia. That is part of the 
agreement. So that countervails the statement that you just 
made.
    Ambassador Baer. The objective of a policy would not be 
technology transfer to----
    Mr. Perry. But it says so in the agreement.
    Ambassador Baer. It doesn't say that that's the objective. 
It may be the case that in certain cases investments in Russia 
include technology arrangements. Investments in most countries 
include technology arrangements. And I----
    Mr. Perry. Most countries aren't trying to destroy this 
country.
    Ambassador Baer. Congressman, I couldn't agree more with 
you that we should be taking a robust, sober, firm position 
with the Russian Federation. I think we should be focused more 
on what we should be doing today as a country----
    Mr. Perry. Thank you, sir.
    Ambassador Baer [continuing]. And what our policies should 
be.
    Mr. Perry. My time has expired.
    I am going to ask unanimous consent to submit this report 
regarding Skolkovo for the record. Hearing none, so ordered.
    The Chair now recognizes Mr. Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I think the public as a whole centers their attention on 
this attack from Russia on the cyberattack and on the hacking. 
But I really think that what they are doing and what they have 
done in other countries is much more comprehensive than that. 
It is a mixture of not just propaganda but a mixture of 
politics, a mixture of business and money and corruption, and 
Putin's self-interest and insecurities, as well as the 
oligarchs and his cronies as well.
    And that is why, honestly, as nice as this hearing is today 
it is not going to accomplish what the American public needs or 
what our allies need overseas, and that is an independent 
commission, a neutral commission looking in at this, as well as 
a special prosecutor.
    And I would add to that, this committee, I think, will take 
a role in sanctions on Russia as well.
    So I want to look at this as a window, as limited as our 
time is, where I think we can gather some insight and maybe 
some overlap in terms of the Russians' behavior, and that is 
looking at Ukraine. You know, it was 9 or 10 months ago that 
there was an office that had personal effects in it and 
furniture in it sitting in Independence Square in Kiev of Paul 
Manafort. And there were reports--and I must say that they are 
not substantiated; there is a need for this kind of 
investigation I spoke about--where the Ukraine Anti-Corruption 
Bureau put facts forward that, at least in their investigation, 
that he had some $12.7 million in an offshore account, and 
undisclosed payments that are involved.
    And my point is this that can you delve a little bit into 
not only Russia's propaganda and cyberattacks, but actually 
their interaction in terms of political parties and candidates 
as well? And I think Ukraine gives us a great example. Could 
you start with that, Ambassador Baer?
    Ambassador Baer. Thank you, Congressman.
    I think in a general term you are right to characterize 
that the specific topics that we have been addressing today in 
terms of disinformation and hacking are only one piece of a 
broader arsenal that Putin uses to attack and undermine 
democratic governments around the world.
    And another way that he has done that is by funding, for 
example, groups on the far left or the far right in European 
countries that foment xenophobia or anti-refugee settlement or 
that attack European energy independence plans.
    Another way that he does it is by ordering support for 
certain political parties. And Ukraine is a prime case in 
point, and has been for years, where there has been a strong 
alliance of Moscow with the Yanukovych regime, however many 
misgivings Putin had about Yanukovych himself, who reportedly 
he thought of as kind of a dolt. The Yanukovych regime was 
doing the business of Moscow, which is why the Ukrainian people 
had the Revolution of Dignity. They were tired of being 
subjugated, their oligarchs being subjugated by Russian 
oligarchs who were then subjugating the Ukrainian people to the 
interests of Moscow.
    And I think we have seen, obviously, some reference today 
to Russian banks--which obviously no business is truly fully 
independent in Russia--Russian banks making loans to European 
far right political parties, including Marine Le Pen's Front 
National.
    So it is certainly the case that supporting political 
organizations in Europe that run counter to European values and 
that support Russian aims is one of the tactics that goes along 
with this disinformation and hacking that we have talked about 
today.
    Mr. Keating. Yes, what are some of the tactics though that 
you have seen or been aware of in terms of oligarch 
involvement, you know, how businesses prosper in a corrupt 
government such as Russia, as well as maybe looking at attempts 
to put people in compromising positions, either for business 
reasons or for political reasons, and maybe use the threat of 
blackmail? How common is that as a tactic in Russia? You know, 
all these things are connected, frankly.
    Ambassador Baer. Absolutely. Our intelligence people would 
be able to give you a full briefing on how common Russian 
tactics are. But my understanding from what I know is that 
Russian intelligence continues to use a number of methods that 
are aimed at compromising people either financially or 
personally, and using that to extract the information that they 
want or the behavior that they want.
    I think with the oligarchs, it is often hard for us to 
understand how much the power of the state is used to privilege 
certain political actors usually in business dealings. So 
monopolies over energy, for example, are a prime area for 
extracting rents by corrupt oligarchs.
    Mr. Keating. Along those lines, Mr. Ilves, you mentioned 
the $9 million suggested was going toward Le Pen. Could you 
tell us how common this is or what the interrelation is, you 
know, between all of these factors? Because without a 
comprehensive, independent review we are never fully going to 
understand this. And we will never give the American public the 
information they need about what has happened. But also, it 
won't prepare us for the next election.
    I will submit that in writing, unless could I have 15 
seconds, Mr. Chair? Some of the other people have had that.
    Mr. Perry. Grant you 15 seconds.
    Mr. Keating. Thank you.
    President Ilves. Well, there are other cases which perhaps, 
I mean, there was a former chancellor of Germany who 
immediately after pushing through a gas pipeline, went to work 
for the gas pipeline. So, I mean, there is a term, 
``schroderization.'' I can't say more than that, but that has 
happened many times, but that is the most egregious example.
    Mr. Keating. Thank you, Mr. Chairman. I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Florida, Mr. 
DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman. And welcome to the 
panel.
    Mr. President, are you available for a question?
    President Ilves. I am.
    Mr. DeSantis. Okay, good.
    I am a supporter of missile defense and want to support our 
Eastern European allies. When that was removed, I think it was 
2009, did that have a beneficial effect in terms of Russian 
behavior?
    President Ilves. Not as far as we could tell. I mean the 
missiles were directed against Iran. So we didn't quite 
understand why the Russians were objecting to it.
    I think that, now speaking personally, I mean I think the 
effect was huge in Poland simply because of the timing of it 
which was the date, September 19th, of the invasion of Poland 
in 1939--the Nazis invaded on September 1, the Russians, the 
Soviets, on September 19th. And it is something that few people 
understand the impact of that. And the movie Katyn is a good 
example of what the real impact was.
    Mr. DeSantis. Do you think it would be beneficial for 
having a missile defense shield that would cover all of Eastern 
Europe?
    President Ilves. Ultimately yes. But, I mean, as I said the 
shield was not against Russia or missiles from Russia, it was 
for potential missiles from Iran. The whole setup was based on 
what happens if the Iranians attack Europe.
    At this point countries that are close to Russia are 
already within range of Russian missiles, at least 400 
kilometers into Europe. That includes all of my country. And 
from Kaliningrad it extends even to Germany over Poland. So, so 
there is, I mean there is quite a bit of concern about 
potential missile--well, I mean need for a missile shield in 
Europe. But I doubt at this point, looking at the political 
spectrum, that there is much political will among the 
governments of Europe to push for that, simply because they are 
not as forward leaning in general as the United States has 
been.
    Mr. DeSantis. I understand.
    Let me ask Ambassador Baer, you served in the Obama 
administration, do you acknowledge that Russia had expanded its 
influence over the 8 years of the Obama administration in 
malevolent ways?
    Ambassador Baer. Sure, I acknowledge that. I think that 
Russia would have aimed to expand its influence no matter who 
was in government. I think the important thing now for us to--
--
    Mr. DeSantis. I think, well, but they would have aimed it, 
but the question is were they deterred from doing it or were 
they emboldened to act, was Putin emboldened to act? And it 
seems to me that he was really emboldened to act in a variety 
of spheres. Obviously he sees Crimea. He sees Georgia. That was 
at the end of the Bush administration but the response for the 
incoming administration was to seek a rest in response to that 
rather than do much.
    A major foothold now in the Middle East which has a lot of 
people worried. They are sending different defensive missiles 
to Iran, the world's leading state sponsor of terrorism.
    So, you know, that is a lot of activity. And I guess, you 
know, I didn't see Russia being checked during those 8 years.
    And I appreciate this issue of them with their cyberattacks 
because I think it is important. I also think they have done 
way worse than cyber in terms of some of the things they have 
tried to do with financial institutions and other things that 
we probably can't get into in this.
    So why weren't they checked? Or was there simply nothing, 
were the policies of the Obama administration correct and it is 
just that is the way the cookie crumbles?
    Ambassador Baer. I think we need to look back further. And 
then we need to come to today.
    First of all, I fully support your--what I take to be your 
view--that we should have a comprehensive review today of our 
posture toward Russia with an eye toward figuring out what 
additional measures may be needed across the range in order to 
deter Russia from further aggression in whatever form. So I 
agree with you on that.
    I think for 25 years after the end of the Cold War there 
were people in both parties who worked incredibly hard to try 
to knit Russia into the international system, a rules-based 
order that the United States had built with its European 
allies. And, obviously, Russia's invasion of Georgia, its 
seizure of Crimea, its continued fomenting a conflict in 
Ukraine runs counter to those hopes. And we need to be 
realistic about that, accept that, and figure out what the 
right policies are moving forward.
    Mr. DeSantis. Let me just ask, I saw in your testimony you 
had mentioned the hacking of Russia, that there would be a mix 
sometimes of false information and accurate information. In 
terms of the United States, the emails that were released were 
Podesta's. Is there any evidence that that was disinformation 
or was that all truthful information?
    Ambassador Baer. I am not in a position to make an 
assessment of all of the things that have been released during 
the course of our election right now.
    Mr. DeSantis. Because it is still wrong to do the hacking, 
don't get me wrong. But if truthful information is out and that 
truthful information is undermining confidence, well then there 
is, you know, some of the things that were said on there I 
think undermine the confidence. And I thought, as far as I 
could tell, it was all accurate information. Doesn't excuse the 
hacking but I think there is a difference between 
disinformation or other----
    Chairman Royce [presiding]. We need to, yes, we need to go 
to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. And I want to thank 
you and the ranking member for holding this hearing today and 
thank the witnesses for being here.
    The title of today's hearing is Undermining Democratic 
Institutions and Splintering NATO: Russian Disinformation Aims. 
Now, I think the scope of this hearing is, as announced, is 
perfect if it took place a year ago. But let's be honest, we 
are here today because Russia engaged in unprecedented criminal 
attacks against the United States by illegally hacking 
information and releasing it in a controlled way to influence 
the 2016 Presidential election. This is indisputable. Seventeen 
American intelligence agencies concurred in an assessment 
published in January.
    The witnesses today have shed light on Russia's nefarious 
activities. But due to their status as private citizens they 
cannot comment on the real issue at hand, namely, why did the 
Russian Government believe that Donald Trump would be a 
sympathetic partner and attempt to tip the scales in his favor; 
whether anyone within the Trump campaign, the transition team, 
or the administration colluded with the Russian Government to 
undermine our democratic election; and what we can do to ensure 
this type of interference never happens in another American 
election?
    The only way to do this is to hear from witnesses from the 
Trump campaign and the Trump administration, including Michael 
Flynn and Jeff Sessions testifying under oath. And I firmly 
believe that the most appropriate context for such an 
investigation is with an independent, bipartisan commission. 
And that is why I, along with every single Democrat in the 
House, have signed on to H.R. 356, the Swalwell-Cummings 
Protecting Our Democracy Act.
    I confounds me that there are members of this body who do 
not support the independent commission. The very fundamentals 
of our democracy are at stake. As elected officials, we have 
more at stake than anybody to get to the bottom of what 
happened in the 2016 election and to find out what ties, if 
any, President Trump and his administration actually have with 
Russia. A partisan investigation held under the cover of the 
intelligence committees simply will not suffice. The American 
people deserve to know the truth. Any investigation needs to be 
held in the light of day so that Americans concerned about the 
undermining of our democracy can hold those responsible 
accountable.
    The Swalwell-Cummings legislation is referred solely to 
this committee. And I urge the chairman to bring it up and 
let's have a markup and vote on it.
    In the meantime, we must send a clear message to the 
Russian Government, and other governments who I can assure you 
are eagerly watching to see how we react, that we will not 
stand for their brazen interference in democratic elections in 
this country and around the world. We need to build upon the 
sanctions put in place by the Obama administration and pass the 
Engel-Connolly SECURE Our Democracy Act which would put in 
place sanctions against anyone who interferes in an American 
election from overseas. We must send a warning to anyone 
thinking about meddling in future American elections.
    Additionally, we must acknowledge the widespread hacking 
and misinformation efforts in which Russia is already engaged 
in Europe, and pass a bipartisan resolution I introduced this 
week with my Republican colleague Peter Roskam, condemning 
Russia's interference in European elections and reinforcing the 
necessity of strong sanctions against those who seek to 
undermine democratic institutions through cyber warfare and 
misinformation. And I hope all my colleagues will join in this 
resolution.
    What Russia has done and continues to do is declare war 
against Western liberal democracy. While his tactics may be 
high tech, Putin's motives are very familiar. He sees 
democracy, and everything that comes with it--elections, a free 
media, transparency and accountability--as enemies to be 
defeated. I do not accept Putin's world view. The Russian 
people are not our enemy to be defeated. But I think we are 
naive if we don't acknowledge the full extent of Putin's war 
against the West and respond forcefully. Make no mistake, Putin 
sees this as a zero sum game: In order for him to be stronger, 
the United States and our allies must be weaker.
    But we have a secret weapon that Putin cannot and will not 
ever understand, and that is our democracy based on universal 
values. Putin sees the truth as an enemy and rules with an iron 
fist so that the true extent of his crimes against the Russian 
people and the rest of the world are never fully revealed. We 
cannot revert to a tactic used by Putin himself to hide what 
really happened in this country last year. This is not about 
politics, this is about the very fundamentals of our democracy 
and what makes America America. And the strongest refutation of 
Putin's plans is to unite in a serious and thoughtful defense 
of our democracy.
    Contrary to what some on the other side have suggested, no 
one wants war. What we want is the truth and a way forward. And 
as Bob Kagan, the former Reagan official and respected 
conservative expert on international affairs, said last week in 
the Washington Post, ``The longer the American people remain in 
the dark about Russian manipulations, the longer they will 
remain vulnerable to them. The longer Congress fails to inform 
itself, the longer it will be before it can take steps to meet 
the threat.''
    The truth is that the truth will set us free. But we won't 
know the truth if we make no attempt to find it.
    And I apologize to the witnesses for using my time to speak 
rather than ask questions but this is important. We owe it to 
our constituents, to our families, to our allies, and to 
ourselves to discover exactly what happened last year in our 
election, how it happened, and how we can ensure it never 
happens again in this country. And I implore my colleagues, 
let's put aside politics, let's get to the bottom of this. The 
testimony of our witnesses today only confirms the urgency of 
doing this.
    And with that, Mr. Chairman, I ask unanimous consent to put 
into the record the assessment of 17 intelligence agencies 
entitled ``Background to Assessing Russian Activities and 
Intentions in the Recent U.S. Election,'' and the Washington 
Post piece by Mr. Kagan entitled ``Republicans Are Becoming 
Russia's Accomplices.''
    Chairman Royce. Without objection.
    We go now to Mr. Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman. I would thank the 
witnesses and apologize in advance for what might seem to be 
something of a soliloquy here. There is a question if I am able 
to get to it.
    At the beginning of the hearing the ranking member said we 
also need to hear from senior administration officials once 
they are in place. Rhetorically I would ask, why aren't they in 
place? We are in the middle of March and there is 
accountability to be had here and in other areas. There are 
things to do here and in other areas. And senior administration 
officials are unprecedentedly not in place. Whose fault is 
that?
    There was also a comment made about the NSA advisor General 
Flynn resigning because of his contacts. No, he resigned 
because of his lies to his chain of command. And I supported 
that action.
    We have heard of Attorney General meetings shrouded in 
secrecy. Well, the Attorney General met twice. One of those 
meetings was arranged by the Obama administration. Candidly, I 
am in a meeting with everyone in this room right now, and the 
definition of the term ``meeting'' is nebulous, bordering on 
meaningless, as it is used by members of this committee in 
political rhetoric. They say a 9/11-style commission alone is 
the only way to ensure transparency. Well, be careful what you 
ask for because you just might get it.
    What we have here is hypocrisy writ large. President Obama 
said to Dmitry Medvedev, ``I will have more flexibility after 
this election.'' Medvedev responded, ``I will transmit your 
message to Vladimir.''
    Obama said the 1980s called and they want their foreign 
policy back. The Cold War has been over for 20 years. It was 
funny then. But there was at least half of the political realm 
in this nation concerned with a threat posed even then by 
Russia.
    Former Secretary Clinton said that to be concerned with 
Russia was ``somewhat dated as a world view.''
    Vice President Joe Biden said Republicans' concerns about 
Russia were only held by a small group of Cold War holdovers.
    Secretary of State Kerry said Republicans worry about 
Russia as if their only knowledge of Russia comes from having 
viewed Rocky IV.
    Chris Matthews said to Rachel Maddow, Republic Russian 
concerns, I don't know what decade these guys are living in.
    Earlier Mr. Doran commented that we are combating a well-
organized, well-funded organization that doesn't care about the 
facts. Rhetorically I would ask are we discussing the Russians 
or the political opposition to President Trump?
    If you want hearings, let's have hearings. But let's not 
limit them to 2016 and 2017. When the fact comes out and the 
public learns that the former Soviet Union colluded with 
members affiliated with the Democrat party to influence the 
United States elections in 1980 and '84 as it related to the 
election and re-election of Ronald Reagan in the form of the 
nuclear freeze movement and others, then we will understand 
just the nature of people being involved in influencing other 
people's elections.
    I have here copies of a story from December 2016 from the 
Los Angeles Times detailing 82 instances where the United 
States was involved in influencing other people's elections. It 
is not okay. I do not defend the Russians. But this is not some 
genesis that occurred as it relates to the Trump 
administration, it is something that has been omnipresent.
    I could ask if the United States uses influence and 
information to influence elections. But we have limited time 
and everyone knows the answer.
    A lot of us recognized Russia as a cyber and traditional 
kinetic threat before this election. The remainder of us have 
now a convenient readout bolstered by a sudden acknowledgment 
of a threat that has been omnipresent despite previous 
strategic denial by those who are now screaming the loudest: 
Don't worry about Russia. Don't worry about Russia. Oh my gosh, 
look, Russia.
    To those people I would quote police detective John 
McClane, ``Welcome to the party, pal.''
    So what we need to do if we are going to be productive and 
not just talk at one another is have actual actions. And I am 
going to do something. I am going to outline some. 
Congresswoman Ros-Lehtinen earlier suggested a limit on waivers 
of sanctions on Russia. Hear, hear.
    Congressman McCaul said establish and identify and 
articulate real doctrine of response to cyber and information 
warfare and draw lines that we will not back away from. I 
second that, Mr. Chairman.
    The sanctions we should tie to specific actions. If we want 
the Russians to do things, we should say these are the things 
you need to do in order to get to those. And we should not 
allow a linkage between Russian actions in Crimea and Georgia 
and Syria and Eastern Ukraine. These should all be dealt with 
independently so that they don't use them as leverage against 
us furthering democracy across the globe.
    Finally, to address this question of whether Mr. Trump has 
somehow undermined NATO, I want to bring people back to the 
real world. My question would be, is a NATO where nations spend 
more to defend themselves stronger or weaker? Because through 
his questioning of NATO's ability and relevance he has caused 
the very defense build-up that I think we can all appreciate, 
thus strengthening NATO by encouraging nations like Germany to 
take more responsibility for their own defense.
    So, finally, in wrapping up, Mr. Chairman, my question is, 
is a stronger military NATO a stronger NATO?
    Thank you. With that I would conclude.
    Chairman Royce. Thank you. The gentleman's time has 
expired.
    We will go to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman. Thank you for calling 
this hearing.
    It is disturbing to me this defense of Vladimir Putin and 
Russia. And it is very worrisome. Look, if we want to call an 
independent investigation looking beyond 2016, looking to the 
last administration, great, let's do it. But this is about 
protecting our democracy. I mean let's just go through a 
timeline of what our current President has said.
    You know, in October 2013 he talked about how he does a lot 
of business with Russia.
    In November 2015 he talked about how he got to know Putin 
very well because we were both on ``60 Minutes.'' They were 
stable mates.
    December of 2015, Vladimir Putin praises him. In response, 
Trump praises him back.
    February of 2016 he talks about how Putin called him a 
genius.
    March 28th he hired Paul Manafort.
    August 17th, President Trump gets his first intelligence 
briefing. We are told in that briefing he is shown direct 
evidence of the Russian Government hacking emails. Two days 
later Paul Manafort resigns.
    In July 2016 he encourages the Russians to hack Hillary 
Clinton's emails.
    President Trump is elected November 8th. November 9th the 
Russian Parliament cheers.
    This is very worrisome. The President talks about this as a 
political witch hunt. Look, he won the election but this isn't 
a political witch hunt. When the tragedy of Benghazi happened 
we came together, an independent investigation looked at what 
happened, what went wrong. We lost some heroes that day. They 
made recommendations. We ought to do the same thing.
    I, you know, I think many of us would say the millions of 
dollars that were spent on Benghazi, the majority had no issue 
with doing that. We ought to do the same thing. This is not 
Democrats or Republicans. This is about protecting the 
integrity of our elections and pushing back.
    You know, I would ask the witnesses a couple yes/no 
questions. Do you have faith in the intelligence community's 
assessment that Russia intentionally interfered with our recent 
elections? Yes? No?
    Ambassador Bloomfield. Yes. But I am very troubled to see 
the Commander-in-Chief announcing something that I would have 
thought was sensitive information, and then reading that people 
were rolled up in Russia who were probably close to Putin. So 
this distresses me.
    Mr. Bera. Yes, no, on intelligence?
    Mr. Doran. As a citizen, yes, I have faith in the 
intelligence community.
    Mr. Bera. Ambassador?
    Ambassador Bloomfield. Yes.
    Mr. Bera. And based on that, do we believe that we ought to 
consider this interference in our democracy, in our elections, 
a national security threat? Ambassador Bloomfield?
    Ambassador Bloomfield. I use the word ``challenge.''
    Mr. Bera. Mr. Doran?
    Mr. Doran. Russia's efforts to destabilize the West on all 
fronts is a threat to us.
    Mr. Bera. Ambassador Baer?
    Ambassador Baer. Yes.
    Mr. Bera. Great. And I think we would all agree that we 
don't believe Russia or Vladimir Putin has our best interests 
or democracy's best interests in mind in these attempts.
    This is about us coming together as Democrats and 
Republicans and protecting our democracy. If America is not 
standing up for democracy and pushing back, you know, the rest 
of the world is watching. It starts to undermine our 
leadership.
    Mr. Chairman, one of the reasons why this has been such a 
great committee is the bipartisan nature of your leadership 
working with the ranking member. I would urge you to let us 
mark up the Protect Our Democracy Act. Let's have this 
discussion.
    Let's set up an independent investigation, look at those 
independent findings and look at those independent 
recommendations to protect our elections, to protect the 
integrity of our elections. Let's not do a political witch 
hunt. This is about our democracy. Would any of you disagree?
    Now let's go to Ambassador Bloomfield. Would you support 
the recommendation of setting up an independent investigation 
that could come up with findings and make recommendations?
    Ambassador Bloomfield. I think an investigation is 
absolutely appropriate. But where you come out matters: If we 
are in confusion, if we are in chaos, if we stop after an 
investigation and say we are dysfunctional and we can't restore 
the Western order against the threat, then we have failed.
    So the idea is to heal the nation, find a way to move 
forward, see what we can agree on, and still have our political 
differences. Show the world that our democracy not only is 
democratic but that we can get something done that works.
    Mr. Bera. Ambassador Baer, should we do an investigation?
    Ambassador Baer. Yes. And I said as much in my testimony, 
both written and spoken.
    Mr. Bera. Great. Thanks. I'm out of time.
    Chairman Royce. Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. And thank you for 
everybody enduring today's hearing.
    Mr. Doran, you said treat Russia like a virus. And I agree. 
Whether it is Russia, China, Iran, North Korea, or ISIS, or 
other entity, the attacks will continue because those nations 
and organizations they don't like us or our principles of 
freedoms and liberty. And they are going to continue to do 
that.
    And I don't have to remind anybody, as Mr. Garrett and 
several other have brought up, that we are not angelic in this 
either.
    I would like to go to Mr. Chabot's comments that Putin's 
goal is to create chaos. And it kind of reminds me of Don 
Adams' series back in the '60s of Maxwell Smart. His nemesis 
was the Russian spy agency called KAOS. And if you look at what 
has happened here, I think the narrative shouldn't be on did 
Russia help Mr. Trump win or help Mrs. Clinton lose because 
they released information or information was released on both 
candidates. I think their goal was to create chaos.
    And I can only imagine that it is 5:00 o'clock somewhere in 
Russia, or beyond, probably about 8:00, 8:30 right now. And it 
reminds me of that song of Alan Jackson and Jimmy Buffett's, 
``It's Five O'Clock Somewhere.'' And I can see Vladimir Putin 
with his comrades around a fire at the Kremlin and they are 
drinking potato vodka, toasting each other, saying, ``Hey, 
Comrade Boris, look at America,'' while they are watching C-
Span. We are fighting amongst each other over something that we 
know has happened. And I think what we need to focus on is how 
did it happen and how do we prevent it?
    And it is not the Republicans or Democrats, as my 
colleagues brought up multiple times today, it is about what 
are we going to do? And that is where the concern to me is. As 
a nation--and the last, Dr. Bera was just talking about do you 
have faith in our intelligence community? I do. But where I 
have doubts is the ability of other countries to hack into us.
    You know, we are the guys that put people on the moon and 
brought them back in the '60s without technology. And I want to 
know why we have fallen down this far to where we can't block 
this. It kind of reminds me of what my dad said having six 
sons, and I am five of six, saying don't worry about what your 
brother is doing. Worry about what you are doing and do it 
better than anybody else so that, you know, you succeed. And I 
think we, as a Nation, need to do that.
    And our goal is, you know, I heard Mr. DeSantis talk about 
the missile defense system. And you said, well, it is not 
pointed at Russia. I think we should have missile defense 
systems in the countries and our allies that want to partner up 
with us versus a country like that, or any other country. And I 
think those missile defense systems should be adaptable as they 
are to any threat to freedom and liberty.
    And so I think you guys have already weighed in on that. I 
would like to hear your response on Radio Free America and just 
sending out the message, the truth message of what freedom and 
liberty is. And how effective is that in your realm or in your 
experience? Mr. Doran, if you would.
    Mr. Doran. Yes. Thank you very much, Congressman, for the 
excellent question.
    I would clarify that when I was speaking about the virus I 
was talking specifically not about Russia as a country but, 
obviously, about, as you know and understand, obviously about 
Russian propaganda. I----
    Mr. Yoho. And that is what it is, it is propaganda. And 
they are going to continue it and we are going to continue it. 
And that is just human nature. I just want to be so secure that 
it doesn't matter because we are putting out the truth. And 
liberty and freedom is something all people around the world 
yearn, if they know about it.
    Mr. Doran. That is correct.
    The way we do this, we have got to detect it. We have got 
to move quickly to have a better handle on how Russian 
propaganda works, and specifically the impact it is having. You 
mentioned Radio Free Europe, Radio Liberty. That is one of 
several avenues we should take.
    I would stress to this committee an all-of-the-above 
approach when it comes to counter strategies against Russian 
propaganda. This means media education. It means broadcasts. It 
means online, leveraging humor and satire. This is something 
that Vladimir Putin and the Russian leadership are very 
vulnerable to.
    And, finally, you know, we have talked a bit about 
government responses but ultimately we are all in this 
together, this is something that society, down to journalists 
and news outlets, have to come to grips with to restore trust 
and credibility in our free press.
    Mr. Yoho. Okay. And I just want to cut you off there 
because, you know, we are going to win this. You look at the 
principles of this country: Freedom and liberty. People around 
the world yearn. We are going to come together as Americans. We 
are going to go up on the hill, we are going to dust off the 
lamps and mirrors on that beacon and it will shine. And it will 
come together by us standing strong as Americans.
    Thank you. And I appreciate your time. Mr. Chairman, thank 
you.
    Chairman Royce. Thank you.
    Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chairman. Thank you to the 
panel today. And I appreciate this hearing.
    So this is my third term on this committee. And we have 
heard about a lot of scary things, whether it is last week what 
is going on in North Korea, Iran, the humanitarian crisis in 
Syria. I could go on and on. But the Russian interference with 
our election to me is the scariest of recent activities that I 
have learned about.
    And what is also very surprising, it is very rare that we 
have all the panelists in front of our committee seem to be 
agreeing. That never happens. So that makes it even more 
alarming to me.
    I want to--and I am going to ask a question before I give a 
whole speech, and that is this: One of the things that I think 
you all mentioned is that there seems to be this pattern of 
interference with elections before ours and going on. And so we 
know, for example, I think one of you said that a lot of false 
stories are spread. My question is, is there any kind of 
pattern of Russia collecting compromising information on 
candidates as well as spreading the false stories?
    President Ilves. I mean, we don't know but we do know that 
the, for example, the German equivalent of the FBI and the 
German equivalent of the CIA, the Verfassungsschutz and 
Bundesnachrichtendienst, actually have made stronger statements 
than the U.S. intelligence agencies on the hacking of the 
entire Bundestag already in 2015, and have also said that 
political parties are being hacked.
    The DSGE, which is the French foreign intelligence agency, 
has again said that the Russians are trying to disrupt the 
elections in favor of one candidate. So we know they are doing 
that. But we don't, we have not seen--see, the hacking works 
when you dox----
    Ms. Frankel. Okay, can I, I want to get to the second point 
which is, which is have you seen any evidence of the Russians 
collecting compromising information on candidates?
    President Ilves. It becomes compromising when you publish 
it.
    Ms. Frankel. Ambassador Baer?
    Ambassador Baer. I mean, I think one of the challenges is 
that President Ilves is getting at is that if you want to 
effectively control someone you don't actually put it out 
there. So the answer is we don't know what efforts at using 
compromise as a way of leveraging behavior or information are 
currently being used because, by definition, effective 
compromise means the threat, using that threat. And, obviously, 
once the information is out there it is not a very good lever 
anymore.
    Ms. Frankel. My colleagues talked today about, well, isn't 
it too bad there was some true information that was put out and 
it is too bad. How much false information was put out, to the 
best of your knowledge, in our campaign? How much false 
information was put out against Hillary Clinton?
    Ambassador Baer. I think it would be difficult to quantify. 
I know some of the people have been doing open source analysis 
of this, of the engagement in our election. And I would be 
happy to deliver to your office a broader analysis.
    I think the important thing here is, and I----
    Ms. Frankel. Well, would it be surprising to hear that it 
is hundreds of thousands of false tweets and Facebook pages and 
whatever kind of social media that is getting out there?
    Ambassador Baer. That wouldn't be surprising at all. I mean 
there are certainly examples, one in Germany recently where the 
Russian propaganda made up a crime that they alleged was 
perpetrated by a migrant which never occurred, and was revealed 
to be completely false from whole cloth. And it is consistent 
with normal Russian propaganda practices.
    Ms. Frankel. So let me just sum up by saying this, and why 
I want to just join my colleagues who are calling for an 
independent review of these matters. Listen, I believe Putin is 
about Putin. Putin isn't trying to help Mr. Trump because he 
likes Mr. Trump. He, for some reason, he believes, I think, he 
was going to get a better deal.
    I don't know whether it is because he didn't like Hillary 
Clinton or President Trump's comments are based on ignorance or 
greed or financial ties or I don't know why the President is 
accusing our President Obama of spying on him. Is he reading 
Russian information? I have no idea. And I think the American 
people have the same kind of questions.
    My first hearing, Mr. Chair, when I was on this committee 
was Hillary Clinton talking about Benghazi. And then there was 
probably nine hearings on Benghazi, $7 million spent. And, 
listen, Benghazi was bad. But if Benghazi was bad let me tell 
you something, the Russians trying to take over our elections 
with all that they did, that is very, very bad. And we need to 
start having some independent reviews and hearings until we get 
to the bottom of this.
    And I thank you all for being with us today and I yield 
back.
    Chairman Royce. We go to Mr. Brian Fitzpatrick of 
Pennsylvania.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. First I want to 
thank the chairman for holding this important hearing. And as 
co-chair of the Ukrainian Caucus I just wanted to commend the 
efforts of those who organized here this week for Ukraine Day 
advocacy programs here on The Hill. So thank you for being 
here.
    And I want to commend my colleague Mr. Yoho. I am not 
liking a lot of what I am hearing here, quite frankly, and I 
think we need to get to solving these problems in a bipartisan 
fashion. I am going to zero in on one issue, and that is 
propaganda specifically as it pertains to Ukraine.
    I spent time in the Embassy there. We got the daily 
propaganda reports. They were troubling to say the least. 
Ukraine is not only engaged in a physical battle, they are 
engaged in a battle of ideas as well. And my question is going 
to be very simple: What specifically can this committee do to 
show our unequivocal support for Ukraine in this fight?
    Mr. Doran. If I could just jump in, obviously there are a 
number of steps that the United States has. I would highlight 
two.
    The first one, continued support for defensive lethal 
weapons to empower the Ukrainians to defend themselves. And I 
also think attention and rhetoric from this body would send a 
strong message that the Americans have not forgotten about your 
fight.
    Ambassador Baer. I agree, particularly with the point about 
attention and with a constant evaluation of what can be helped. 
I mean, I think your question was about the information war 
that the Ukrainians are under. I think one of the strongest 
things that we can do is to continue to shine a spotlight on 
the situation there and remind the world that there is an 
ongoing conflict. We had the largest land battle since World 
War II in Europe in Eastern Ukraine, and most Americans, most 
Europeans don't know that fact.
    And so we need to continue to shine a spotlight and support 
the reformers who are continuing to do the ongoing work of the 
revolution with dignity. There is obviously there is a huge 
corruption case unfolding this week. Stories like that need to 
get out because those stories, those stories of the truth of 
the reform effort that young Ukrainians, civil society, 
independent journalists are pushing, those stories are the 
stories that win the hearts and minds of the Ukrainian people 
and that push back against the steady diet of Russian 
propaganda that is being pumped into the country.
    And, obviously, the Russians make use of an asymmetry. When 
we, in our own society and Ukraine as well, where there are 
great protections for freedom of expression, greater 
protections for media freedom, the Russians take advantage of 
that. They pump their propaganda in. If countries target that 
propaganda they say, oh, what happened to free speech? And they 
use that against us.
    We need to continue to support Ukraine's reform agenda. We 
need to continue to support independent voices inside Ukraine, 
including with small grants funding, et cetera, to support 
those startups of independent journalism. We need to keep the 
spotlight on Ukraine so that Putin's crimes there are exposed 
to the world.
    Ambassador Bloomfield. President Ilves started by talking 
about Clausewitz and saying that war is an extension of 
politics by other means. In that spirit, the committee can 
exercise oversight on the administration and hold it to a 
standard of having a comprehensive policy that deters Putin 
from pushing Ukraine further, and that reviews a whole series 
of measures that the Congress believes are wise and the 
administration is willing to pursue through all means to try to 
support Ukraine's freedom.
    President Ilves. I think it is also important to recognize 
that the propaganda war goes among ourselves against Ukraine. 
Just 2 days ago there was a blistering attack against Chrystia 
Freeland, the new foreign minister of Canada, because she has 
Ukrainian roots and has been very pro-Ukrainian, and published 
in the Canadian press.
    When we looked at this massive flow of disinformation 
immediately after Crimea we had the BBC saying, well, we have 
to balance. So here is what the Ukrainians say and here is 
what, you know, these other people say. And they're all lies. 
And if you start balancing between lies and the truth, what is 
in between is something very funny.
    But basically I think, I mean in Europe I think they have 
gotten a better handle on this. But 2014 there was so much 
disinformation that was simply taken up. And, also, it is in 
our own language. If the European Union, if the foreign affairs 
people there don't say until 2015 that they are dealing with 
Russians in the Donbass but rather only separatists, who for 
some reason have hundreds of tanks and the missiles that it 
takes 2 years to learn how to use, I mean, that is we have to, 
we have to here in the West recognize the propaganda about 
Ukraine.
    And I think in the first year or so we lost that battle.
    Mr. Fitzpatrick. I want to thank you. And if you could, 
just keep this committee advised on what we can do in that 
fight because with the 24-hour news cycle it is very easy to 
lose sight of the plight that is occurring out there. And it is 
sad and it is severe and we need to have their back. So if you 
could just keep that information flow coming, I would 
appreciate it.
    I yield. I yield back, Mr. Chairman.
    Chairman Royce. Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Chairman Royce. I hope this is the 
first of many hearings on Russia. And I look forward to future 
hearings once the administration has put in place senior level 
officials at the State Department. Thank you to the witnesses.
    It is my hope also, as we have heard, that this committee 
will take the initiative and mark up the SECURE Our Democracy 
Act and Protect Our Democracy Act to get to the bottom of 
Russian interference in U.S. elections and prevent future 
action. Members on both sides of the aisle have acknowledged 
Russia's use of disinformation campaigns to hack and disrupt 
elections. Professional-looking programming on channels like RT 
complement disinformation efforts to promote the reiteration 
effect. Taken together, Russian propaganda is blended into 
infotainment with reality talk shows that either twist or 
invent facts and parallel it with media stories to create the 
impression of popular support.
    Putin has surrounded himself with oligarchs and used the 
government to protect and enrich those loyal to him. Oligarchs 
have used the courts to paint unflattering stories such as fake 
news. Most recently--and excuse all of my pronunciation--oil 
baron Igor Sechin, the CEO of Rosneft, who has a close personal 
relationship with Secretary Tillerson, filed lawsuit over 
unflattering stories about media outlets that still retain some 
freedom and objectivity, like RBK and Vedomosti.
    Delegitimizing and establishing news sources and promoting 
propaganda media has created an environment where news outlets 
fear speaking truth to power in the service of the Kremlin. I 
think some may see troubling parallels between the Kremlin's 
media distrust and what we are seeing from the current Trump 
administration.
    Ambassador Baer, over the weekend we saw reports that 
President Trump was in a rage that the Attorney General recused 
himself from Russian interference investigations. On Saturday 
morning, President Trump sent a series of, in my opinion, 
irrational tweets accusing President Obama of wiretapping him, 
with no evidence. It seems that the closer we get to tying the 
President to Russia, the more erratic, illogical, and defensive 
he becomes to change the news cycles.
    You have worked with foreign governments, friends and 
adversaries alike. What sort of message does it send when the 
President lashes out like this after he reads something that he 
doesn't like about himself or his inner circle? Put simply, can 
the leader of a nation that engages in disinformation campaigns 
and speaks out against a free press in his or her nation be 
taken credibly by our foreign counterparts--or by their foreign 
counterparts?
    Ambassador Baer. I think that question probably is best 
answered by our foreign colleagues and partners.
    I think without commenting on the specific incidents that 
you mentioned, which I think gave a lot of people reason for 
concern, I think to state it in the affirmative I think it is 
fundamentally important that the leader of the United States 
recognizes that being leader of the free world is not some 
added task that gets put on the side. It is a distinct honor of 
being the President of the United States of America that we are 
seen as representing something around the world.
    Ronald Reagan was referenced earlier today. And certainly 
Reagan was one who communicated and understood this as well as 
anyone. And so I think to state it affirmatively, it is 
incumbent upon the occupier of that office to carry her or 
himself in a way that represents American values and American 
principles for the world in a compelling way. And I think any 
incumbent of that office should be always thinking about that.
    Ms. Kelly. I don't know if any of the other witnesses have 
a comment on what effect you think this is having?
    Ambassador Bloomfield. I will just make a personal comment, 
if I may.
    The United States for the last two Presidents has had 
someone who wasn't predicted to win, who came from the outside, 
who resonated with the American people and who won the 
election. They were not establishment figures. They were not 
the lead candidate.
    And by the way, the day we see that in Moscow or Tehran or 
Beijing will be a great day for the world because those are 
one-party systems that are never going to give it up and are 
really punishing their own people to stay in power.
    So you are not getting somebody who spent years and years 
and years practicing being a Washington politician. I worked 
for President Reagan and both Bush presidencies. They were 
attacked very strongly. You will never hear me criticize the 
oversight and checks and balances process. That is what makes 
us strong, stronger than anyone. So have at it, but recognize 
that at the end of the day we need an executive branch that can 
perform Article II powers and can do what it is authorized to 
do to achieve strategic goals in the world. That is the bottom 
line.
    Ms. Kelly. My time is up.
    Chairman Royce. Well, we go to Brendan Boyle of 
Pennsylvania.
    Mr. Boyle. Well, thank you, Mr. Chairman, and to Ranking 
Member Engel for calling what I hope is the first of many 
congressional hearings into just what exactly happened this 
past election with respect to Russian interference in our 
precious American democracy.
    Based on the unanimous conclusion of the 16 intelligence 
agencies in the United States, it is abundantly clear that we 
need a 9/11-style commission, a bipartisan, non-partisan 
commission modeled after the 9/11 Commission to investigate and 
determine what exactly happened. But more than that, we need to 
ensure the independence of any such commission and the ability 
to act on any criminality that took place. That is why in 
addition to a 9/11-style commission I have called for a special 
investigator or special prosecutor.
    Now, I have also gone to the House Floor and publicly 
thanked Republican Senators Lindsey Graham and John McCain and 
any others who have clearly put country ahead of party in this 
matter. I have been disappointed that there haven't been more 
voices on the other side, especially in this chamber, who 
recognize that this is not about party, this is about country, 
and to join with Senators Graham and McCain to call for a 9/11-
style commission, to co-sponsor the Cummings-Swalwell Act, and 
to call for an independent outside investigation.
    We need to know as Americans what exactly the relationship 
is between the top levels of the executive branch, including 
the occupant of the Oval Office, and this Russian regime. I 
would also say that both in George Washington's farewell 
message and all throughout the Federalist Papers it is written 
of the dangers of partisanship and just how concerned our 
founders were that partisan interests would override the 
national interests. I think that 240 years later we would be 
wise, all of us, to remember their words.
    Now, specifically I want to turn to a more strategic issue 
and consideration. A recent article in the New Yorker brought 
to light an article written by the Russian chief of general 
staff which said that in the future, wars will be fought with a 
four-to-one ratio of non-military to military measures. The 
non-military was to include efforts to shape the political and 
social landscape of the adversary through subversion, 
espionage, propaganda, and cyberattacks.
    Ambassador Baer, can you comment on how you saw examples of 
these during your time at the OSCE? And I wonder if you could 
specifically speak about Ukraine, knowing that I have a number 
of Ukrainian-American constituents, some of whom are here today 
and on the Hill this week lobbying their elected 
representatives. And we are probably right now the most in 
danger even, respectfully even more so than the Baltics and any 
other part of Europe.
    Ambassador Baer. Thank you, Congressman.
    I think what you are referring to is the Gerasimov article 
and with the practice that we have seen that put into in 
Ukraine in the last 3 years. We just passed the third 
anniversary of Yanukovych's flight, abandoning his post. And it 
was shortly after that that President Putin sent in the so-
called little green men into Crimea who took over first the 
Parliament, and then surrounded military bases, of course 
without insignia or any demarcation. And then held a 
``referendum,'' a mock referendum at the barrel of a gun and 
claimed that that was a justification for annexation.
    We saw that continue, and hybrid warfare continue in 
Eastern Ukraine when Putin sent in highly-trained 
paramilitaries to take over town halls and government buildings 
in Eastern Ukraine, take over police stations, et cetera, and 
work with local gangs and criminal elements to seize control of 
territory in Eastern Ukraine.
    All along with this there was hard force, as you referred 
to, but there was also an information and propaganda war that 
was going along. And to the points that have been made, a huge 
piece of this is confusion and sowing the inability to make a 
determination. And, obviously, one of the things that I think 
for our own systems that we need to be studying is how do we 
make determinations in an environment in which the other actor 
is purposely trying to make the kinds of determinations that we 
need to make more difficult?
    This, you mentioned that this has to do centrally with 
Ukraine. That is where we are seeing it play out. But I think 
the concerns that we see among allies are that, you know, we 
need to be able to determine when hybrid warfare is under way. 
And we may not be able to determine that in the old fashioned 
way when we see tanks with Russian flags on them coming across 
the border, we know hybrid warfare has started.
    Mr. Boyle. And I know I am running out of time. I was going 
to say that this is especially true with the elections in 
France and Germany coming up this year. It is not an 
exaggeration to say the future of the EU is at stake.
    I thank the chairman.
    Chairman Royce. Brad Schneider of Illinois.
    Mr. Schneider. Thank you. And again thank you to the 
witnesses for being so generous with your time. I want to take 
a special moment to thank Chairman Royce, Ranking Member Engel 
for calling this hearing. I will echo what others have said, I 
hope this is the first of a series of hearings to understand 
what has happened and, more importantly, to understand how we 
will respond to it.
    But I would also add my voice to calling for an independent 
commission to investigate the Russian efforts to interfere in 
our elections and how that would play out.
    To the panel, you know, looking backward and given what we 
know so far about the Russian efforts to interfere in our 
elections, what our capacities are, and to figure out how to go 
forward you always have to look back, if you were to counsel--
and 20/20 hindsight is always wonderful--to counsel if we had 
only done X, Y, and Z, are there things that we could have done 
in hindsight that might have thwarted their efforts in this 
past election that would be useful going forward?
    President Ilves. Well, I would quote Jonathan Eyal, who is 
the head of the British Defence Ministry think tank RUSI, in a 
quote 2 years ago or 3 years ago actually, in the Financial 
Times, is that for 25 years we told the East Europeans that 
they were paranoid, didn't understand what was really going on, 
and that Russia was just a normal country. And now we have to 
admit those East Europeans were right.
    Mr. Schneider. Ambassador Bloomfield.
    Ambassador Bloomfield. I don't know what we could have done 
differently in the past. But I do know that as we go forward, 
if we have more object lessons such as President Ilves just 
gave us, if we are still saying why didn't we take corrective 
measures in 2017 when we were focusing on the issue, and why 
are the Russians still able to pollute the information space in 
the information era, we will have failed. So we have got work 
to do.
    Mr. Schneider. If I could expand on that more on your 
testimony, let me thank all of the witnesses. Your written 
testimony was extraordinary across the board and very helpful 
as we prepared. But, Ambassador, you talked about the needs for 
moving forward through governance, making sure we are standing 
strong. Thoughts on what we can do, specific stuffs, how we 
move that forward?
    Ambassador Bloomfield. Just whatever is done next, if there 
are investigations of Russia, if there are special 
investigations, never lose sight of the bar that you are aiming 
toward which is an American standard of ethics, transparency, 
accountability, and justice.
    And the founders said ``toward a more perfect union.'' We 
know we are not perfect, so we are not holding ourselves up to 
be better than anyone, we are trying to get better ourselves. 
But if the world sees us doing that and trying to hold 
ourselves to a standard above partisanship, then I think we 
will have more influence and power in the world, and Putin will 
be guilty of being a bad actor. No one will want to do business 
with Russian companies if they think it is going to bring 
corruption and coercion and blackmail into their economy.
    So they are not helping themselves.
    Mr. Schneider. And I think, as we have been here a long 
time, I think it was in response to a question Ranking Member 
Engel asked, of the ability to recognize the difference between 
the United States and Russia. Ambassador Baer, I think it was 
you, who said that we need the President to speak clearly, to 
articulate that there is a difference in the United States 
living up to its values, working toward that more perfect 
union.
    But, Ambassador Baer, I wonder if you have further 
thoughts, after several hours here, what we can do in our roles 
to help articulate that difference?
    Ambassador Baer. I mean, I would associate myself with the 
comments made by Ambassador Bloomfield. I think that it is very 
important, whatever we are doing, to keep that objective, which 
is a common and shared objective, in mind. And I do think that 
an independent commission is the kind of mechanism, the kind of 
tool that we can use, not only to educate policy makers about 
what kind of approaches can forestall future efforts by Russia 
or others to interfere in our democracy, but also can help 
American citizens to educate themselves about the nature of 
these attempts to manipulate us through control, through taking 
advantage of some of the asymmetries that are based on our 
greatest strengths. The fact that we actually have free and 
fair elections, unlike the Russians where Putin manipulates the 
tallies, we have free and fair elections. He can take advantage 
of that.
    We have freedom of the press. He can take advantage of 
that.
    And I think that is the value and we should be aiming at 
are these constructive objectives that could come out of a fact 
finding mechanism.
    Mr. Schneider. I am out of time. I am sorry, Mr. Doran, 
because I wanted to touch on your comments about pushing back 
on fake news. But I think all of this comes together. As we 
live up to our values, we continue to educate our public, we 
need to stay true to those values and stay true to our path.
    Again I thank the witnesses very much. And I yield back.
    Chairman Royce. Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman. I want to thank you 
again. I especially appreciated your comment in the beginning 
about the manipulators of Moscow. I thought that was a very 
good way of putting it. And I want to thank the ranking member 
as well for some of his comments, especially if you mess with 
the bull, you get the horns. And I think that his sanctions act 
that he has proposed along with one of our colleagues is a 
great example of that.
    And I want to echo a lot of things that have been said on 
both sides here today about the need to actually do something 
in response to what the Russians have been doing. The world 
today is not as simple as America versus Russia, like it was 
against the Soviets. The challenge in the world today is, Tom 
Friedman wrote in his book and I think Mr. Yoho was 
referencing, the battle is between control versus chaos. Places 
in the world that are stable versus chaos. Places that are 
ungoverned, places that are failing, places that were propped 
up in the old days by the Soviets and the Americans that were 
average and below average states, but because of corruption or 
because of lack of resources or incompetence they are failing. 
And we now have 65 million refugees in the world as opposed to 
35 million refugees 10 years ago.
    And what Putin is doing and what the Russians are doing is 
they are fomenting chaos in the world. And that is the biggest 
threat to our world order today is chaos, places that are 
ungoverned, places that cannot stay governed and that are 
fomenting unrest and insecurity in so many different places.
    So I want to appreciate both Ambassadors' comments about 
that they support the idea of an independent investigative 
body, similar to the 9/11 Commission. And I think, Mr. Doran, 
are you in support of that as well?
    Mr. Doran. I will leave that up to the committee.
    Mr. Suozzi. Well, I certainly would support that and I 
think many others would as well.
    What I want to ask each of you in the 3 minutes that I have 
left is what is the one thing that you think that we can do 
now, even before we do further investigation, because everybody 
agrees what the Russians did in this past election, the 
intelligence community, each of the witnesses here, all of us 
up here, we all know what the Russians have done and have 
continued to do, what is the one thing we can do now to send a 
very clear message to the Russians that we are not going to 
take this, and we are going to act strongly? Just one thing 
from each of you.
    President Ilves. Well, recognize the positive asymmetry in 
favor of the West and actually make it difficult for people to 
send their massive amounts of illicit money to be laundered in 
the West, to be parked in real estate in London and in Florida. 
The same people--I mean it is unconscionable--the same person 
who stopped Russian adoptions has a mansion in Florida.
    Mr. Suozzi. So the financial money that is pouring into our 
country and in other countries that we think they have 
influenced elections as well, try and do what we can to try and 
stop people from being able, having that freedom from Russia to 
spread their money around the world to influence people's 
behavior.
    Ambassador?
    Ambassador Bloomfield. Recognize that what Russia tries to 
do works best if no one ever figures it out. They have been 
caught. We have caught them. And so flip the lights on, let the 
sunlight of transparency shine on all of his sins. Punch it 
through their firewalls and let the 143 million Russian people 
know everything about Vladimir Putin and what his circle has 
done.
    Mr. Suozzi. So, we have figured it out and we have seen the 
intelligence community's reports on this, the unclassified 
ones. But you think that there is even more that we can figure 
out and tie more of these connections together if we were to do 
this type of investigation?
    Ambassador Bloomfield. You have to ask yourself why the 
Russians, the Iranians, the Chinese spend so much time and 
effort, and they create commands to oversee the internet and 
television and create propaganda channels. They have a huge 
investment and they invest in the information space that is not 
public. It is not free. There is a reason for that.
    Mr. Suozzi. We have to fight them with the truth. As you 
have been saying all day here today, transparency.
    So I only have a minute left. So, Mr. Doran?
    Mr. Doran. When it comes to disinformation and propaganda a 
magic trick is only magic as long as you can't see the slight 
of hand. Revealing Russia's slight of hand on propaganda is the 
best way that we could push back against disinformation.
    Mr. Suozzi. So you are leaving it up to the committee but 
you are encouraging us to dig further. So further 
investigation, further information, independence, find out what 
is going on, expose the trick that they are doing.
    Ambassador?
    Ambassador Baer. I mean, I agree with the some of the 
statements that have been made so far. I think we need to keep 
the punishments that we have already put in place and be 
assessing whether additional punishments are necessary. And 
that can be part of the work of this committee or a 
recommendation of an independent commission. And I think we 
should be sitting down with our European colleagues, both in 
government and in civil society, and thinking practically about 
next steps to help them build their resilience of their 
society.
    Mr. Suozzi. I would argue that more punishment is necessary 
and we need to do more. But at the same time, recognizing what 
some of my colleagues said, we don't want a war. We don't want 
to destroy Russia because, you know, we don't want more chaos. 
We want them to be stable. But they have to know they can't 
mess with us like this.
    Thank you so much. Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member 
Engel for hosting this overdue briefing. I also want to thank 
the witnesses for their expert testimony.
    Though I will admit that this is not the briefing that I 
think we should be having. In fact, I am convinced that my 
constituents and the American people want a hearing about who 
enabled the Russians to interfere with our democracy and our 
electoral process. They really want to know did our Attorney 
General meet with Russian, with the Russian Ambassador during 
the past election and what for.
    They may also want to know did members of the President 
Trump's campaign team meet with the Russians and for what 
reasons did they do that? Or did the President himself meet 
with the Russian Ambassador during or prior to his campaign and 
for what? Did anyone collude, conspire, or enable the Russians 
to break the law and influence the results of our election? I 
think that is what the American people want to know.
    Disinformation is certainly an issue, and one that we see 
in the U.S. as well. Putin has Russia Today and Trump has 
Breitbart. As an American, I am mortified to learn that a 
foreign government with a history of hostility has committed 
criminal acts to undermine the cornerstone of who we are as a 
nation, our democracy. I echo my Democratic colleagues because 
I don't think that we can overstate this, that we need a 9/11-
style commission. We need a sanctions response. DOJ needs to 
appoint a special prosecutor, one that, unlike the Attorney 
General, is independent, with no links associated with Russia.
    I have some questions and I would appreciate if you can 
just give me a yes or no answer because I think they are 
critical to the content of what I have just explained.
    My first question is, do any of you know how many meetings 
took place between Russian officials and former Trump campaign 
officials that are now part of the Trump administration? Mr. 
President?
    President Ilves. No.
    Mr. Espaillat. Ambassador?
    Ambassador Bloomfield. No.
    Mr. Espaillat. Mr. Doran?
    Mr. Doran. None.
    Mr. Espaillat. Ambassador?
    Ambassador Baer. No.
    Mr. Espaillat. My second question is do you know if any of 
Trumps campaign officials and/or associates met with Russians 
during the past election? Mr. President?
    President Ilves. No.
    Mr. Espaillat. Ambassador?
    Ambassador Bloomfield. No.
    Mr. Espaillat. Mr. Doran?
    Mr. Doran. None.
    Mr. Espaillat. Ambassador?
    Ambassador Baer. No.
    Mr. Espaillat. And finally, do you know if President Trump 
himself, as it was reported recently in the news, met with the 
Russian Ambassador at any time prior or during his campaign? 
Mr. President?
    President Ilves. No.
    Mr. Espaillat. Ambassador?
    Ambassador Bloomfield. No.
    Mr. Espaillat. Mr. Doran?
    Mr. Doran. No.
    Mr. Espaillat. Ambassador?
    Ambassador Baer. No.
    Mr. Espaillat. Well, these are questions that we must have 
answers to. I believe very strongly that this crisis is as 
serious as the Cuban Missile Crisis. There may not be any 
missiles involved in this, but there is a clear attempt to 
undermine and destroy our democracy. And during the Cuban 
Missile Crisis you had two major figures. You had Nikita 
Khrushchev, who allegedly pounded his shoe at the U.N. Plenary 
Session in 1960. And, of course, Vladimir Putin has a different 
approach, his passive-aggressive approach. He may not pound his 
shoe but his intent is to dismantle and discredit our 
democracy.
    The other great figure in that debate was President John 
Fitzgerald Kennedy, who I think outflanked the former Soviet 
Union and avoided a nuclear holocaust. And, of course, our 
President is no Jack Kennedy.
    But this is a serious crisis, as serious as the Cuban 
Missile Crisis. And we need to know who enabled the Russians to 
hijack our democratic process. This is something that we must 
do. And I hope that we can convene another hearing where we 
will be able to subpoena, if necessary, Mr. Chairman, the folks 
that may have the answer to these questions that this 
distinguished panel could not answer.
    I want to thank the panel for their expert testimony. But I 
think at the core of this debate is the American public's need 
to know who tried to hijack our democracy. We need those 
answers. And we need to bring a group of witnesses here and, if 
necessary, to subpoena them to come in and give us the answers 
to those critical questions.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go to Norma Torres of California.
    Ms. Torres. Thank you very much, Chairman Royce. And thank 
you for working together with Ranking Member Engel to bring us 
together to talk about one of what I hope to be the first 
hearings on how Russia interfered in our election. I certainly 
hope that this dialog will continue.
    The hour is late and I want to thank, you know, everyone 
who is here, our panelists. I thank you for being so patient 
with all of us.
    I truly believe that we need to more fully understand how 
Russia interfered in our election. Russian intelligence 
accessed elements of multiple state and local electoral boards. 
Since early 2014, Russian intelligence has researched U.S. 
electoral processes and related technology and equipment. I 
feel like we are speaking in two different languages because 
much of that information has been kept, you know, under lock 
and key in a very classified room. But our electorate, our 
voters need to know what happened.
    And that is why I will join my colleagues in calling on an 
independent fact finding investigation, a commission of some 
sort, something like the 9/11 Commission. It doesn't have to be 
specifically that. But we need to figure out how did Russian 
agents, whether working, you know, with one or more than one 
campaign, how did they interfere in our election? We need the 
Department of Justice to appoint a special prosecutor to 
investigate.
    Ambassador Baer, in your testimony you state that we need a 
comprehensive independent review of what occurred. And I wanted 
to talk a little bit about what that review board will look 
like and what sort of questions could be asked and what sort of 
fact finding information we should be looking for?
    For instance, should such a review include questions about 
the extent to which our state electoral boards were 
compromised? We know that the FBI provided some support to our 
secretaries of state. We know that in a couple of cases they 
have also sent a team of half a dozen or a dozen investigators 
to look at exactly how that data was or was not manipulated. 
Can you comment on that?
    What could we task this non-partisan commission to work? 
And what should be our priority? Should our priority be the DNC 
personal emails? Or should our priority be protecting our 
electoral elections for future elections?
    Ambassador Baer. Thank you, Congresswoman, for the 
question.
    I think my answer to the question would be that if I were 
designing the mandate for an independent commission of some 
sort I would make it relatively broad. Because I think part of 
what we don't know is what we don't know. And I think you want 
to give the commission the ability to direct their 
investigatory efforts, their fact finding efforts, and to 
redirect that as they learn more about what has happened. And I 
think the focus should be on foreign, and at this point 
particularly Russian, efforts to undermine the integrity of our 
elections, either through the manipulation of the public sphere 
or through technical means.
    I think one of the things that has come out--and I worked 
very closely with the National Association of Secretaries of 
State during the run-up to our elections because the OSCE 
actually sends people to learn about how good elections, to 
observe our elections and see how they work--you know, one of 
the things we saw is that a number of state election boards had 
had cyber incidents. The fact that the United States has a very 
decentralized system of running, managing the actual counting, 
et cetera, of ballots makes us actually fairly well-defended 
against a massive cyberattack against our electoral system.
    I think at this point, from what we know and the conclusion 
of our intel community, the bulk of the influence operation was 
aimed at the issues that we have been discussing today in terms 
of hacking and disinformation. But I wouldn't think----
    Ms. Torres. Well, we also know that they spent a lot of 
resources in learning about the different types of electoral 
systems across the U.S. So given that we know that, what kind 
of expertise is needed for such a board to be able to conduct 
that type of information research?
    Ambassador Baer. I think we would, I think if I were 
designing it, again, I would give it a broad mandate. I would 
hope to have a mix of expertise on the board. And I would give 
the board latitude to bring in additional expertise as needed 
as the work proceeds. Because I think you want to make sure 
that if we are going to go through this, which will necessarily 
have resource costs as well as political costs--let's be 
realistic--you want to make sure that it has the best chance of 
success, where success is, as Assistant Secretary Bloomfield 
said, something that will contribute to the progress and the 
integrity of our democracy going forward and enable the 
American citizens to have confidence in that.
    Ms. Torres. Thank you. My time has expired. I yield back 
and hope to continue this conversation with all of you.
    Chairman Royce. Thank you.
    We go now to Mr. Ted Lieu of California.
    Mr. Lieu. Thank you, Chairman Royce and Ranking Member 
Engel for holding this hearing.
    I think for many Americans Russia is confusing because 
there are so many things going on. So I thought it would be 
helpful to just boil it down to just three things.
    We do know that Russia launched a massive cyberattack last 
year and influence campaign to undermine faith in the U.S. 
democracy, help Trump win, hurt Secretary Clinton. It is an 
unclassified intelligence report that anybody can go on Google 
and read.
    I read the classified intelligence report. I went to 
classified briefings. I can say from my perspective as a 
computer science major there is clear and convincing evidence 
to support the conclusions of the unclassified report. So, we 
have the Russian attack on America.
    The second thing we have is we have now these numerous 
covert meetings between Trump campaign officials and the 
Russians that they had lied about having. And, Ambassador 
Bloomfield, I did read the Rolling Stone article. It is true 
there is a lot of smoke. We don't know what was said in those 
meetings. It is possible in all these secret meetings they were 
talking about the lovely weather in America. It is possible 
they were not.
    The third thing we do know is we also, perhaps, have a 
motive for why there would be collusion which has to do with 
massive global business holdings of the President of the United 
States. He may have business holdings in Russia. Why do we not 
know if he does or doesn't? Because he doesn't release his tax 
returns. That is deeply disturbing.
    When the framers of the Constitution set up our 
constitution they set put in Article 1, Section 9, Clause 8, 
called the Emoluments Clause that says you can't have foreign 
conflicts of interest that result in payments or gifts because 
they viewed foreign influence as one of the greatest dangers to 
our republic.
    So, Ambassador Baer, I want to ask you, when you were 
Ambassador and had these 50 different countries, were you ever 
worried about the President's business interests or what other 
interests the President might have in relation to those 
countries?
    Ambassador Baer. I only served as Ambassador under 
President Obama. And I had no concerns about President Obama's 
business interests.
    Mr. Lieu. If you were Ambassador today would you find it 
concerning if the current President of the United States had 
massive undisclosed business interests in Russia?
    Ambassador Baer. I think it is in the interest of the 
President of the United States to have as much confidence as 
possible from the American people. And I think the release of 
tax returns is something that past Presidents have done 
uniformly in an effort to demonstrate the transparency and the 
sincerity of their commitment to the tasks of the office rather 
than to any other interests.
    Mr. Lieu. Thank you. I have always believed that where 
there is smoke there is fire. And there is a lot of smoke right 
now, which is why I join my colleagues in a call for a 9/11-
style bipartisan commission to look at the Trump/Russia ties.
    I also join my colleague, who is a Republican from San 
Diego, as well as other colleagues here who are Democrats, in 
calling for a special prosecutor.
    Something else that happened this last weekend that I find 
enormously, deeply disturbing. President Trump, who has access 
to the highest levels of intelligence, told the American public 
that Trump Tower was wiretapped. What that means is that U.S. 
intelligence officials believe that agents of a foreign power 
were at Trump Tower. It also means an independent FISA court 
judge, appointed by Chief Justice Roberts, sat there, reviewed 
the evidence, and concluded there was probable cause to believe 
agents of a foreign power were at Trump Tower. That is what 
Donald Trump's tweet means.
    So I take President Trump at his word. And I join Senator 
Lindsey Graham in requesting investigations and documents into 
this issue because the American public needs to know why would 
U.S. officials and an independent judge believe there were 
agents of a foreign power at Trump Tower. So this issue of 
collusion is so threatening to our republic we can't just sort 
of hide this under the rug.
    And it also has real life and death consequences. Just 
today we learned that the President of the United States, with 
no debate in Congress, sent additional conventional ground 
troops to Syria to help assault a city, Raqqa. This is a huge 
escalation of the war in Syria now that we are using 
conventional ground forces.
    What if these U.S. troops run into the Russians? What is 
our policy? What are we going to do? What is our end stake in 
Syria where there are Russians sitting there who have a 
different view than in the U.S.? This measure in particular has 
no strategy. So not only do we have possible collusions, we 
have actions that are going to directly confront Russia. And it 
is time for the President and this administration to come 
clean.
    I yield back.
    Chairman Royce. I want to thank all of our witnesses for 
their excellent testimony today. There is a strong consensus 
that Russia is aggressively seeking to undermine Western 
democracies. We have critical European elections coming up. It 
is essential that we must be as effective as possible working 
to counter these Russian efforts, and this must be done in 
unison with our allies.
    As I mentioned in my opening statement, we will continue 
working on reforming our international broadcasting efforts. 
Bad information must be combated with accurate information.
    Many concerns were expressed about Russian meddling in our 
2016 Presidential elections. This is an established fact. We 
are all concerned about Russia's past, current, and future 
efforts. Our democracy is under attack and needs to be 
aggressively protected. We all agree that is absolutely 
essential.
    That is why the Speaker of the House has tasked the House 
Intelligence Committee to continue its investigation of Russian 
meddling, including contacts with individuals associated with 
political campaigns. This is a bipartisan investigation. The 
chairman is a Republican, the ranking member is a Democrat. It 
is an investigation by a committee that will have access to 
highly classified material. It will hear from administration 
officials. Importantly, it will meet in public session. It will 
meet in public session later this month. And it will issue a 
report.
    This committee will continue its focus on Russia and its 
aggression.
    I thank the ranking member and, again, I thank the 
witnesses for their time.
    This hearing is adjourned.
    [Whereupon, at 1:25 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 

Material submitted for the record by Mr. Peter B. Doran, executive vice 
             president, Center for European Policy Analysis
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The entire report is not reprinted here but may be found on the 
Internet at: http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105674

         

   Material submitted for the record by the Honorable Scott Perry, a 
    Representative in Congress from the Commonwealth of Pennsylvania
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Note: The entire report is not reprinted here but may be found on the 
Internet at: http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105674

         

  Material submitted for the record by the Honorable Brad Sherman, a 
        Representative in Congress from the State of California
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            

 Material submitted for the record by the Honorable Thomas A. Garrett, 
  Jr., a Representative in Congress from the Commonwealth of Virginia
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The entire report is not reprinted here but may be found on the 
Internet at: http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105674



 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
